<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2007 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 109-78]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT
                          FOR FISCAL YEAR 2007

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               ----------                              

                MILITARY PERSONNEL SUBCOMMITTEE HEARING

                                   ON

   BUDGET REQUEST ON RECRUITING AND RETENTION AND MILITARY PERSONNEL 
               POLICY, BENEFITS AND COMPENSATION OVERVIEW

                               ----------                              

                              HEARING HELD
                             APRIL 6, 2006


              [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                --------

                     U.S. GOVERNMENT PRINTING OFFICE

30-472 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
















                    MILITARY PERSONNEL SUBCOMMITTEE

                   JOHN M. McHUGH, New York, Chairman
JO ANN DAVIS, Virginia               VIC SNYDER, Arkansas
JOHN KLINE, Minnesota                MARTY MEEHAN, Massachusetts
THELMA DRAKE, Virginia               LORETTA SANCHEZ, California
MICHAEL CONAWAY, Texas               ROBERT ANDREWS, New Jersey
JIM SAXTON, New Jersey               SUSAN A. DAVIS, California
WALTER B. JONES, North Carolina      MARK UDALL, Colorado
JIM RYUN, Kansas                     CYNTHIA McKINNEY, Georgia
ROBIN HAYES, North Carolina
                Mike Higgins, Professional Staff Member
                 Debra Wada, Professional Staff Member
                   Margee Meckstroth, Staff Assistant


























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2006

                                                                   Page

Hearing:

Thursday, April 6, 2006, Fiscal Year 2007 National Defense 
  Authorization Act--Budget Request on Recruiting and Retention 
  and Military Personnel Policy, Benefits and Compensation 
  Overview.......................................................     1

Appendix:

Thursday, April 6, 2006..........................................    49
                              ----------                              

                        THURSDAY, APRIL 6, 2006
FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
 RECRUITING AND RETENTION AND MILITARY PERSONNEL POLICY, BENEFITS AND 
                         COMPENSATION OVERVIEW
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Chairman, 
  Military Personnel Subcommittee................................     1
Snyder, Hon. Vic, a Representative from Arkansas, Ranking Member, 
  Military Personnel Subcommittee................................     2

                               WITNESSES

Chu, Hon. David S.C., Under Secretary of Defense (Personnel and 
  Readiness); Lt. Gen. Franklin L. Hagenbeck, Deputy Chief of 
  Staff, G-1, U.S. Army; Vice Adm. John C. Harvey, Jr., Chief of 
  Navy Personnel, and Deputy Chief of Naval Operations (Manpower, 
  Personnel, Training & Education), U.S. Navy; Lt. Gen. Roger A. 
  Brady, Deputy Chief of Staff, Manpower & Personnel, U.S. Air 
  Force; Lt. Gen. H.P. Osman, Deputy Commandant for Manpower and 
  Reserve Affairs, U.S. Marine Corps.............................     4
Pilling, Adm. Donald L. (Ret.), Chairman, Defense Advisory 
  Committee on Military Compensation, U.S. Navy..................    34
Robertson, Robert E., Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office.........    35
Strobridge, Col. Steven P. (Ret.), Director, Government 
  Relations, Military Officers Association of America, U.S. Air 
  Force..........................................................    37

                                APPENDIX

Prepared Statements:

    Brady, Lt. Gen. Roger A......................................   170
    Chu, Hon. David S.C..........................................    60
    Hagenbeck, Lt. Gen. Franklin L...............................   123
    Harvey, Vice Adm. John C., Jr................................   138
    McHugh, Hon. John M..........................................    53
    Osman, Lt. Gen. H.P..........................................   182
    Pilling, Adm. Donald L. (Ret.)...............................   214
    Robertson, Robert E..........................................   231
    Snyder, Hon. Vic.............................................    55
    Strobridge, Col. Steven P. (Ret.)............................   247

Documents Submitted for the Record:

    Statement of Air Force Sergeants Association by Command Sgt. 
      (Ret.) James E. Lokovic....................................   280
    Statement of Reserve Officers Association of the United 
      States on Pay and Compensation.............................   271
    Statement of The National Military Family Association........   293

Questions and Answers Submitted for the Record:

    Mrs. Drake...................................................   337













FISCAL YEAR 2007 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
 RECRUITING AND RETENTION AND MILITARY PERSONNEL POLICY, BENEFITS AND 
                         COMPENSATION OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                           Washington, DC, Thursday, April 6, 2006.
    The subcommittee met, pursuant to call, at 9 a.m. in room 
2212, Rayburn House Office Building, Hon. John M. McHugh 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM 
      NEW YORK, CHAIRMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Good morning.
    Dr. Chu. Good morning, Mr. Chairman.
    Mr. McHugh. Figuratively speaking, actually literally 
speaking, I am gavel-less here. Probably figuratively speaking 
as well. So the hearing will come to order. Thank you all for 
being here. As my great military adviser, John Kline has 
informed me, this is not the optimum hearing room, and I think 
we are all in agreement with that, but we do appreciate your 
participation.
    I am going to just submit a very--and recite just a very 
brief opening statement, because we do have two very 
distinguished panels here this morning. And all of us would 
like to devote our attention and time listening to them and 
engaging in an exchange that will follow. So beyond welcoming 
you this morning, let me just say the Subcommittee on Military 
Personnel has always considered the close oversight of military 
recruiting and retention programs as a matter of highest 
priority. And that responsibility has seldom weighed more 
heavily on this subcommittee as it has over the past four 
years.
    We have watched these programs, recruiting and retention 
very closely, and I believe we have responded with reasonable 
effectiveness with the appropriate legislative solutions when 
problems have been identified.
    Through all of that, however, our job remains very 
difficult. In fact, this may be the most challenging year for 
recruiting and retention since the creation of the all-
volunteer force.
    And the successful completion of our mission will require 
the close coordination at all levels, finely-tuned team 
comprised of the services, the Department of Defense and, of 
course, Congress.
    And I promise that this subcommittee--all of its 
membership, both sides of the aisle--is prepared to hold up our 
end of the bargain.
    And today we will continue our dialogue on those recruiting 
and retention initiatives and a variety of other personnel 
programs. And we have a number of concerns about continuing 
problems of achieving recruiting goals, the erosion in 
recruiting quality, and the commitment to fully funding 
recruiting and retention programs in a timely manner, as well 
as the advocacy and, excuse me, adequacy of the proposed pay 
raise.
    We look forward to the upcoming discussions and appreciate 
the participation, I said, of our two very distinguished panels 
today.
    I will introduce the participants in those two panels more 
fully in a moment. Before I do that, I would be happy to yield 
to my distinguished ranking member and friend in this 
initiative, the gentleman from Arkansas, Dr. Snyder.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 53.]

 STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM ARKANSAS, 
        RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Dr. Snyder. Thank you, Mr. Chairman. I apologize for being 
a few minutes late. We were having our breakfast with Dr. 
Winkenwader, Dr. Chu.
    Continuing our discussion the administration's proposals on 
the TRICARE programs, I appreciate you all being here. I am 
going to be very brief. I have a written statement, Mr. 
Chairman, I would like to submit it for the record.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 55.]
    Dr. Snyder. We really are at a disadvantage. It seems worse 
this year in terms of our compressed congressional schedule 
that we try to cram so much into these hearings. But you do the 
best you can. We will do the best we can.
    One issue I have I wanted to ask about, and if you have any 
comments you want to make as we go through the opening 
statements, feel free to, but I am concerned about our GI bill 
benefit when you we talk about retention and recruiting our GI 
bill benefit for our reserve component forces.
    On the Veterans Committee, we have done some increases in 
benefit and dealt with that issue for our active component 
veterans. But, as you know, there are different legislative 
jurisdictions. And so I reserve my view. We have a lot of work 
to do on our reserve components, but if you have any comments 
on that, if not, I will ask you about it. Thank you all for 
being here. I appreciate it.
    Mr. McHugh. Thank the gentleman. I would ask unanimous 
consent to include additional statements from the Reserve 
Officers Association, the Air Force Sergeants Association, and 
National Military Family Association as a part of the whole 
record hearing. Hearing no objection, that is so ordered.
    [The information referred to can be found in the Appendix 
on pages 271, 280, and 293.]
    Mr. McHugh. Let me introduce our first panel. First of all, 
no stranger to this subcommittee, or to the full committee for 
that matter, the Honorable David S.C. Chu, who is Under 
Secretary of Defense for Personnel and Readiness.
    Mr. Secretary, thank you as always for being here.
    No stranger to me and also to the subcommittee, Lieutenant 
General Franklin L. Hagenbeck, United States Army Deputy Chief 
of Staff, G-1 headquarters Department of the Army--there you 
are, Buster, welcome. Always have a soft place in my heart for 
former commanding generals of the 10th mountain division, and 
also generals who are appearing before this subcommittee for 
the last time, let me say, unless catastrophe strikes, the last 
time, let me say we deeply appreciate your service as the G-1.
    I have enjoyed, we all have, working with you. I am pleased 
as a 12-year, nearly 12-year member of the board at West Point, 
that that will be your next assignment. We are looking forward 
to continue working with you through your entire career. Thank 
you for all you have done, and I look forward to our continued 
relationship.
    Let me also introduce Vice Admiral John C. Harvey, Jr., 
chief of Navy Personnel Department of the Navy. Admiral, thank 
you for being here. Good to see you. Admiral Harvey, this is 
your first opportunity to testify. And if you had an 
opportunity to talk to those who appeared before you, it will 
be a brutal experience. But, we understand you are up to it, 
but we thank you for being here, sir.
    Admiral Harvey. Thank you, sir.
    Mr. McHugh. And wish you all the best as your days go 
forward as the chief at personnel.
    Next, Lieutenant General Roger A. Brady, who is Deputy 
Chief of Staff for Personnel Headquarters, United States Air 
Force. General good to see you again.
    And Lieutenant General H.P. Osman, Deputy Commandant for 
Manpower and Reserve Affairs, United States Marine Corps. 
General, good to see you again. Again no strangers, either of 
those gentlemen to the subcommittee.
    Just to make sure I have no other further housekeeping 
business on this side, I do not. So with that, Mr. Secretary, 
Secretary Chu, we look forward to your comments. Let me duly 
note, however, we have received all of your prepared testimony. 
Without objection, they will be ordered into the full record in 
their entirety. No objection is heard and that will be ordered.
    And you may summarize and address your comments any way you 
see fit. Our attention is yours,

 STATEMENT OF HON. DAVID S.C. CHU, UNDER SECRETARY OF DEFENSE 
  (PERSONNEL AND READINESS); LT. GEN. FRANKLIN L. HAGENBECK, 
   DEPUTY CHIEF OF STAFF, G-1, U.S. ARMY; VICE ADM. JOHN C. 
HARVEY, JR., CHIEF OF NAVY PERSONNEL, AND DEPUTY CHIEF OF NAVAL 
 OPERATIONS (MANPOWER, PERSONNEL, TRAINING & EDUCATION), U.S. 
NAVY; LT. GEN. ROGER A. BRADY, DEPUTY CHIEF OF STAFF, MANPOWER 
   & PERSONNEL, U.S. AIR FORCE; LT. GEN. H.P. OSMAN, DEPUTY 
 COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    Dr. Chu. Thank you, Mr. Chairman, members of the 
subcommittee, it is a privilege to be here with you this 
morning in this historic room. The photograph behind us reminds 
us of the centrality of personnel to the success of our 
military forces.
    You noted in your opening comments, Mr. Chairman, that this 
is a volunteer force, a decision the country made 33 years ago 
this summer, returning to its historic tradition that our 
military typically is staffed by volunteers.
    And we are very grateful for the partnership with this 
committee, with the Congress, that has allowed us to sustain 
that volunteer force in the face of significant challenges as 
you have noted.
    We recognize that there are several elements that are 
central to our continued success in sustaining that volunteer 
force.
    One element is a competitive pay and benefits package. 
There is a reason for our advancing a pay increase that is 
consistent with pay changes in the civil sector, and our coming 
recommendation for an additional increase for those in 
noncommissioned officer ranks and in the warrant officer group.
    We believe, at the same time, it is critical for the 
Department of Defense (DOD) to make effective use of all its 
personnel resources and this subcommittee, this committee, was 
a leader in giving DOD an important set of tools with the 
authorities in the national security personnel system that, we 
believe, will allow us to make better use of our civilian 
personnel. You have, likewise, been very helpful to us in 
giving us better tools with which to manage our reserve force, 
which is equally important to our continued success.
    The department, I think as you appreciate, continues 
reviews, how we manage our personnel, what authorities might be 
needed. Personnel, human resource strategy was a central 
element in the Quadrennial Defense Review you just concluded. 
That review argues we need to do a better job preparing our 
personnel, particularly our officer personnel, in terms of 
their language abilities, foreign language abilities. It also 
calls for the development of a human capital strategy for the 
future that emphasizes the competency of our personnel as 
opposed to specific task they might undertake.
    The Secretary, a year ago, invited outside advice on the 
structure of our compensation package, and I am delighted you 
are going to hear this morning from Admiral Pilling, who will 
report its principal results.
    We will use that outside committee's report as the 
foundation, as the starting point, for the 10th Quadrennial 
Review, military compensation that the Congress, by statute, 
has amended.
    And I have just, within the last 24 hours, transmitted to 
the Congress our report as required by statute on joint officer 
management. And we will be proposing changes that we think will 
bring this system into these early years of the 21st century to 
continue success that has been achieved thus far, to make it a 
system where we emphasize joint qualifications, not just joint 
credit; to a system that defines joint matters to include multi 
national interagency efforts, to a system that speaks to fully 
joint qualified officers, not just the joint specialty 
officers, and to a system in which combatant commanders have 
more latitude to ensure those qualified officers are placed in 
abilities critical to their operations.
    At the same time, DOD recognizes we must be judicious about 
the personnel costs of our enterprise. That lies behind our 
recommendations, both in terms of numbers and in terms of the 
compensation package.
    We must balance the cost of operating DOD against the cost 
of investing in its future, most especially the systems that 
enable that force to be effective now and in the years ahead.
    Mr. Chairman, members of the subcommittee, I look forward 
to your questions, and I am delighted to be joined by my 
colleagues from the military services.
    General Hagenbeck. Thank you.
    Mr. McHugh. Thank you, Mr. Secretary.
    [The prepared statement of Dr. Chu can be found in the 
Appendix on page 60.]
    Mr. McHugh. As we introduced, next up is General Hagenbeck. 
Buster, thank you again for being here. I look forward for your 
comment.
    General Hagenbeck. Thank you, Mr. Chairman, thank you for 
those kind words earlier in your introduction. Dr. Snyder and 
distinguished members, it is indeed a privilege to be able to 
talk to you today about America's Army and the state of 
personnel readiness. I, as you mentioned, have submitted a 
written statement. So I will keep this very brief. I will 
highlight recruiting and retention. Recruiting right now is 
going very well across all three components. I am happy to 
report this morning that the active Army has succeeded for the 
tenth consecutive month in their recruiting goals. That is not 
to say that we do not have continued challenges throughout the 
remainder of this year. As you well know, about 50 percent of 
those that we seek to recruit will fall over the last 3 to 4 
months of the year. So we will be in a day-to-day challenge to 
meet that. But we are optimistic that we will do so.
    With regard to retention, we continue to do well. Last 
year, as you know, we set historic highs for retention. At this 
point we are exceeding what we did last year.
    Again, I would be remiss if I did not thank this committee 
in Congress, though, for providing us with those incentives 
that undergird the recruiting and retention that is absolutely 
necessary to keep our all volunteer force viable and in the 
fight that we have got today.
    As you know, we have got over 600,000 soldiers mobilized on 
active duty today across all three components dispersed in as 
many as 120 different countries. And they are performing 
magnificently wherever we challenge them, and our sister 
services as well, we are working arm in arm with them in these 
difficult days.
    The demonstrative performances I mentioned is seen day in 
and day out by America's Army. You see it. Many of you have 
been overseas and some of you are scheduled to go over very 
soon after these hearings conclude. And I am sure that you will 
also support these statements.
    So again, I would just like to thank the support from this 
committee and from Congress. And I look forward to answering 
your questions. Thank you.
    [The prepared statement of General Hagenbeck can be found 
in the Appendix on page 123.]
    Mr. McHugh. Thank you very much, General.
    Admiral Harvey.
    Admiral Harvey. Good afternoon, Mr. McHugh, Dr. Snyder, 
distinguished members of this subcommittee. Thank you very much 
for this first opportunity I have to appear before you today.
    As we have continued to reshape and adapt the Navy to 
defeat the emerging threats, it continues to be the preeminent 
naval fighting force in the world. And we are going to keep it 
that way. At the very heart of this Navy, our people, active 
and reserve, military and civilian, remain the greatest 
strength and most fundamental element of our continuing 
readiness and success.
    The fiscal year 2007 President's budget supports a Navy 
active duty end strength authorization of 340,700. We have 
reduced active end strength steadily since 2003 using a 
controlled measured approach to shape and balance this skill 
mix we have to maximize our warfighting readiness.
    Several initiatives have contributed to our ability to do 
this, to do this in a measured fashion, including operable 
manning, substitution of civilian personnel in certain formerly 
military positions where appropriate, improving our 
understanding of the true work requirements throughout the 
force, and greatly improved mechanisms by which we perform this 
work and deliver training to the force.
    The sailors, civil servants and contractors who will 
support joint missions in the future are entering the workforce 
in the Navy today. What we do today, the decisions we make, the 
constraints we live under, will determine our future 
capabilities.
    We are positioning ourselves to assume new and increased 
roles in mission areas such as riverine operations, naval 
expeditionary security force, and increasing our contribution 
in the special operations area. We have focused significant 
efforts on our ability to recruit the right, high quality 
individuals, significantly reducing our post enlistment 
attrition and improving our ability to retain the highly 
qualified and motivated sailors.
    We are continuing to look at our compensation strategy to 
ensure it is right for the decades ahead, given the changing 
demographics of our Navy and our Nation.
    An effective compensation system must acknowledge that the 
future lies with an all-volunteer force and must, therefore, 
emphasize volunteerism.
    We must shift focus to competency, performance, and skill-
based compensation and away from reliance on longevity and 
rank.
    Deferred compensation no longer has the efficacy it once 
did. I believe, instead, we must optimize current compensation 
in a manner that creates a push to a full career rather than 
the current cliff vested pull.
    We are extremely grateful to your commitment to the men and 
women of the U.S. Navy and of the programs that make them the 
premier maritime fighting force in the world and has sustained 
them and their families.
    On behalf of our total Navy, I thank you for your 
continuing and unwavering support, sir.
    Mr. McHugh. Thank you very much, Admiral.
    [The prepared statement of Admiral Harvey can be found in 
the Appendix on page 138.]
     Mr. McHugh. Again, welcome.
    General Brady.
    General Brady. Mr. Chairman, Dr. Snyder, distinguished 
committee members, thank you for this opportunity to be here 
today and to talk to you about your Air Force.
    For the past 15 years, America's airmen have responded to 
dramatic changes in the world's security environment. We 
continue to streamline our Air Force while remaining engaged 
around the world at levels higher than at any time during the 
Cold War.
    We will continue transforming our Air Force to meet the 
challenges of a dynamic world. Winning the Global War on 
Terror, developing and caring for airmen and recapitalizing and 
modernizing our air and space systems to meet the Nation's 
requirements.
    Ladies and gentlemen, the Air Force is aggressively working 
to bring into a proper balance the investment, operations and 
people accounts in a way that will ensure we meet the demands 
of this war and whatever challenges might come next.
    Just as the Base Realignment and Closure (BRAC) and 
Quadrennial Defense Review (QDR) have assisted in moving us 
toward appropriate infrastructure and investments, force 
shaping is essential to ensuring we have the right size and 
shaped force to face the challenges in the new century. In the 
past 18 months, we have reduced our active duty end strength to 
congressionally authorized levels, and taken action to relieve 
some of our most stressed career fields. While we met our 2005 
end strength requirements, we began 2006 with a force 
imbalance, a shortage, of enlisted personnel, and an excess of 
officers. This imbalance created both operational and budgetary 
impacts.
    We have taken several actions to ensure our force is 
correctly sized and shaped to meet future challenges and to 
reduce costs. First, we reduced our enlisted target for 2006 to 
address the enlisted imbalance. Second, we continue to 
encourage qualified officers, especially those commissioned in 
2000, and later to consider voluntary options to accept service 
in the national guard, Air Force Reserve civil orders and 
inter-service transfer to U.S. Army. We are institutionalizing 
the force shaping authority that was granted in the 2005 
National Defense Authorization Act to restructure our junior 
officer force.
    Having given our officers the opportunities to select from 
several options of service, we are convening a force shaping 
board in 2006 to consider eligible officers that were 
admissioned in 2002 and 2003.
    This board will be held annually thereafter as required to 
properly shape and manage the officer corps to meet the 
emerging needs of the Air Force.
    We are diligently examining the capabilities we need to 
provide to the warfighter and to operate and train at home. We 
must add skillsets that are on demand, develop skills in 
evolving mission areas and take care of the world's finest 
airmen. As we reduce our overall force to balance our 
portfolio, we will continue to use the personnel authority 
currently available to us.
    In addition, we are seeking additional authorities and 
incentives through the zero seven omnibus to properly recognize 
the contributions of our people for their loyal and dedicated 
service and to shape our force.
    The Congress has been extremely generous in meeting the 
needs of airmen and their families. And we thank you.
    We look forward to working with you to ensure your Air 
Force continues to be the best there is. Our active, guard, 
reserve, and civilians together form our total force and are 
building on their heritage of courage, excellence and 
innovation.
    To succeed internationally as an air and space 
expeditionary force in this Global War on Terror, it is 
essential to remove barriers of culture and language and set 
new patterns of thinking. This necessitates understanding and 
successfully using knowledge of language and culture to enhance 
mission success. In our continuum of learning and education, we 
will place new emphasis on language and culture.
    Officers at the Air Force Academy and in the reserve 
officer training corp (ROTC) will receive a foundation in a 
foreign language. As our officer and non-commissioned officer 
(NCO) core progress through their career, they will receive 
additional education to develop cultural understanding and 
awareness as a foundation for building relationships. Beginning 
this next school year, our intermediate and senior level 
schools will offer language training in French, Spanish, 
Chinese and Arabic.
    This training and emphasis on cross cultural communication 
and negotiation skills will form the foundation for more 
effective planning and execution of military operations in 
coalition environments.
    As we continue to develop and shape the force to meet the 
demands of the new century, we will ensure our people have the 
skills and equipment that yield real combat capability. And 
with your support, the Air Force will continue to be the most 
lethal Air Force in the world.
    Mr. Chairman and members of the committee, thank you for 
all of your great support to the men and women of our Air 
Force. And I look forward to discussing these issues with you. 
Thank you.
    Mr. McHugh. Thank you, General.
    [The prepared statement of General Brady can be found in 
the Appendix on page 170.]
    Mr. McHugh. And General Osman. Welcome.
    General Osman. Chairman McHugh, Dr. Snyder, distinguished 
members of this committee, it is a pleasure to appear before 
you again this morning.
    Since joining the Marine Corps in 1967, I have had an 
opportunity to work with generations of Marines, going back to 
World War II, Korea, my own generation in Vietnam. As a company 
commander, I watched our first batch of our volunteers, and of 
course the last two decades I have watched Marines come and go 
into the Middle East. I am here to tell you that there has been 
no finer Marine than the Marine we have today. And I say that 
out of great respect to the two Marines on the panel.
    Dr. Snyder. We agree with you, by the way.
    Mr. McHugh. I would.
    Dr. Snyder. You were better looking.
    General Osman. Today's Marine is a true volunteer. He 
believes in what he is doing. He has a sense of dedication and 
a level of professionalism that belies his youth.
    He loves his Nation. He loves his corps and he loves his 
fellow Marine. He truly is a very special individual.
    This last weekend, I had an opportunity to talk to a group 
of veterans from the Battle of the Bulge. And I told them that 
this generation is the next greatest generation.
    Our written testimony, as you probably noted, was very 
positive. It was upbeat. Because that is the way things are 
today in the Corp.
    I see that for four special reasons. The first, of course, 
is that individual Marine we have today; second thing, is the 
great support that our married marines are getting from their 
families. They allow it to happen.
    Third thing is we have an active force and reserve force 
that is totally integrated and fights as a team. And fourth is, 
to be honest with you, is the support that we have gotten from 
Congress in the form of the correct legislation, the right 
budget and supplementals to allow us to operate today, and of 
course, your great moral support.
    I am optimistic for the future. Things will continue to be 
good and I am convinced of that because I am convinced that 
Congress will continue to provide the tools to allow us to 
recruit, train, and retain the Marines that we need for the 
future.
    I also believe that through the leadership of this 
committee, we will also continue to take care of that precious 
asset we call a Marine and his family. And I look very much 
forward to answering your questions this morning. Thank you.
    [The prepared statement of General Osman can be found in 
the Appendix on page 182.]
    Mr. McHugh. Thank you, General. Thank you all. I deeply 
appreciate your service and your leadership and of course your 
presence here today. I think General Osman's comments about the 
quality of men and women in his references in the Marine Corps 
but I think we can broad brush it and say in all the services 
as an appropriate segue to what this hearing, what this panel, 
what this Congress, and certainly the Armed Services Committee, 
is going to try to be about and that is continuing to be part 
of your solution and less a part of your problem.
    We are blessed as a people, as a Nation, to have such 
incredible young men and women and older men and women, who 
have stepped forward to serve. We have all seen them in the 
field, as General Hagenbeck noted. Some of us are preparing to 
depart in the next few days to see them again.
    And it makes us all very, very proud, and we want to see 
that continue.
    I was listening to probably a terrible comment on my social 
life, but one of those late night supposedly political 
information shows where they bring in Hollywood people to talk 
about current affairs and international relations. I am not 
sure why they do that. I am not sure why I watched. But, it was 
very annoying to hear one of the stars say very, very bluntly 
that the high rate of retention, that General Hagenbeck and 
others have spoken about, that really, in the light of the 
operations and personnel tempo, is pretty remarkable, was 
really due to the fact that these people had nowhere else to 
go, and they weren't particularly bright and no kinds of 
options.
    And for those of us that understand exactly the caliber, 
the mental capacity, and the skills of these remarkable people, 
I was angered to say the least. We want to make sure that 
ignorant people like that are kept off in the corner where 
ignorant people and ignorant opinions belong. But, part of that 
is to ensure that tomorrow's recruit is of the same caliber as 
yesterday's.
    And in the full committee, when we had our general 
oversight hearing, and Secretary Harvey was in and the chief, 
we did talk about some concerns that we have as to recruit 
quality.
    And I just want to read a few statistics and hear all of 
your responses.
    On the one hand, we have the kinds of standards that DOD 
has imposed. Mr. Secretary, you are familiar with them. And 
today, the reality is we have got an Army national guard that 
has increased the number of recruits who had tested in mental 
category four, which is the lowest acceptable category, from 
three percent, which was found in fiscal year 2004 to five 
percent during fiscal 2005, to eight percent in fiscal 2006, at 
least through February. And the DOD goal for mental category 
four is less than four percent.
    Naval Reserve has experienced a decline in recruit quality 
during the fiscal year of 2006 through February. In the mental 
category 4, we have seen, for example, high school diploma 
graduates 96 percent. In 2005, it dropped to 90, and so far in 
fiscal year 2006, the DOD goal is 90 percent. They are at 73 
percent.
    The Army Reserve mental category four, in 2004 one percent, 
in 2005, three percent, in 2006, five percent. And again, DOD 
goal is under four.
    Those kinds of things are of concern. I understand the 
pressures to recruit. But I think you have to be very cautious 
and keep our eye on that particular trend. If you couple that 
with the reports you see in the media, and certainly the data 
we have available to us seems to validate that the numbers of 
waivers that are being granted for recruits, for aptitude, for 
medical, for moral offenses--and the moral offenses are listed 
from who hasn't gotten that unusual number of parking or minor 
traffic violations to loitering, to littering, to other areas 
that are of concern, experimental drug use, weapons on school 
property, assault, robbery, vehicular manslaughter, and some 
others that, I question if waivers have ever been issued for, 
but they have been listed. Those have increased to the highest 
levels for each component, in the Army, over the last six 
years.
    So, what do you think? What is the response to these kinds 
of data? And what are we going to do to make sure that you have 
ups and downs in recruiting, and standards are based on 
averages, and as my dad said, put one foot in a bucket of ice 
water another foot in the bucket of boiling water on average 
you are comfortable. We have good weeks and bad weeks. But what 
is your reaction to those kinds of data, Mr. Secretary?
    Dr. Chu. Let me offer an overview and invite my colleagues 
to comment in terms of specifics in their individual military 
services. First, let me emphasize the standards, DOD gains have 
remained the same. They are standards set approximately 15 
years ago. They are, as you emphasized in your anecdote about 
your television selection, very high standards. They are above 
what the Nation as a whole typically achieves.
    High school graduation rates for example on the whole are 
75 to 85 percent, we have met 90 percent high school diploma 
graduate.
    And as you implied with your review of the numbers, we set 
a variety of different standards. First ability, that is the 
aptitude standard. Second, stick-to-itiveness for which the 
high school diploma, as you appreciate, is a proxy. There may 
be other ways of addressing that issue. And we are constantly 
looking at it. The Army has had some success in that regard in 
recent months, at least from the preliminary data, and third, 
moral character.
    Let me address the last first, and then, come back to what 
I see as the broad issue that I think we have already partnered 
on, and we need to continue our efforts and reinforce those 
efforts. On the waiver issue, those do go up and down over 
time, so the same time that the Army numbers have come back in 
2005 to approximately where they were on the active side in 
2002, having been below that in 2003 and 2004, you see on the 
Marine Corps side that the waiver numbers have come down from 
where they were in the early 2000s. So for DOD as a whole, we 
are approximately where we were in earlier years.
    The services I will let them comment on it, my colleagues 
can comment on it individually, look behind the stated issue in 
the summary data. And I think one does have to look in each 
case at what actually happened, what are the circumstances, is 
this disqualifying or not.
    To the broad issue, what I am impressed by is the 
willingness of young Americans to think positively about 
military service. We do surveys, polls of stratified random 
samples of American youth. That propensity for military service 
has remained roughly the same over the last five, six years.
    It goes up and down a little bit. Up one year, down the 
next, but over the five-, six-year period, roughly the same. 
What has changed over this period of time, and this is, I 
think, a serious issue for the country, is the willingness of 
older Americans, parents, teachers, counselors, coaches, 
advisers, to recommend positively a military choice, whether 
that is for a few years or for a 20- or 30-year career. And I 
think that is a serious issue. It was an issue that was with us 
before 9/11, it has become more serious since that period of 
time. And partnership with you, members of this subcommittee, 
the larger committee, the Congress, in celebrating military 
service, reinforces the willingness of young Americans rather 
than questioning the willingness of young Americans in their 
interest in military services, I think, is crucial to our 
success in the months and years ahead. And I think we need to 
reinforce what we are already doing in that regard if we are to 
succeed.
    Mr. McHugh. Before you turn the microphone over to General 
Hagenbeck on your last point, chairman of the joint chiefs, 
General Pace was in to chat with me yesterday, and he made that 
very point. And I agree with it. What do we do about it is the 
issue. And I am asking from the congressional perspective. Do 
you have any suggestions as to what this panel and what this 
full committee might do, other than trying to talk up the 
troops, which we all do, is there anything legislatively? You 
see, it is a difficult target to get to.
    Dr. Chu. It is a difficult target to get to. Let me 
underscore how important what you described as talking up the 
troops is to the troops and to young Americans that you, 
leaders in our country, speak positively of military service is 
a great, is a great addition to the efforts that we make.
    We in DOD are trying to make sure that there is more 
information out there that we give parents specifically better 
ability to talk with their young people about military service, 
pro and con, so they make up their minds with the factual set 
of the mission out there.
    I think I would recommend additional attention to important 
authorities that members had within their own offices. There 
are a few members, for example, that do not, I regret to say, 
fully use their military academy appointment authority. I think 
that is unfortunate in character, and I think we need to 
address that and ask why they don't use that authority. It is a 
great opportunity, great institutions, all three of them.
    I do think that the facts about the quality of our 
military, as your anecdote emphasizes, deserve continued 
reinforcement. I am delighted to see our public affairs office 
take on some of the misinformation out there about the quality 
of the military. This is an extraordinary group of young 
people. I think the country saw that, for example, in the 
embedded reporters footage in the march to Baghdad in March of 
2003. They saw the quality. They are seeing it every day in 
their ability to be effective in the extraordinarily 
challenging insurgency environment.
    Together, I think we can change this trend. We can put it 
on an upward trajectory. But it will take enormous efforts.
    Mr. McHugh. Thank you. General Hagenbeck.
    General Hagenbeck. Mr. Chairman, there is absolutely no 
question that we are paying attention, daily attention to the 
quality of the force that we reenlist and that we retain. A 
data point that I know that you are familiar with is that only 
three out of 10 youngsters in America between 17 and 24 years 
of age are even qualified to join the military service, any of 
the sister services up here before you today. So that is the 
population which we begin with, which is roughly 10 to 11 
million young folks out there today.
    You cited the category four numbers. Let me sit here, and I 
assure you that both the United States Army and reserve and the 
active component will not exceed the four percent at the 
conclusion of if fiscal year on the active force, that is 2,840 
soldiers that we will bring in against an end strength that we 
anticipate right now, will be somewhere on the order of 
502,000. So that is a very small number that is embedded inside 
there. I will defer to General Blum and General Bonn to talk 
about the national guard since that is in their purview.
    With regard to the waivers, they are up a very small 
percent this year, but I will tell you that across a five-year 
rolling average, which we maintain, they are within tolerance. 
And as you so stated, those waivers vary from location to 
location. And for a variety of reasons. And the way that we 
view this is to allow the chain of command to make those 
decisions based on the whole person concept, and those folks 
that may have overcome problems in their youth.
    As you mentioned, most of these are things such as five 
misdemeanor parking tickets can get you disqualified without 
having to get a waiver as well as some more serious things, but 
we pay very close attention to it and the Secretary of the Army 
and chief are briefed every month on all the particulars that 
you raise. So we think right now we are doing fine, but we are 
not going to take our eye off the ball on this.
    Mr. McHugh. I appreciate hearing that. I mean the object of 
this question really is to make sure we are all focused on 
that. The waivers are up for active Army about 13 percent of 
exceptions to about 18 percent. And clearly, if you add to that 
three out of ten who are baseline eligible for service in the 
military, things like curfew violation and parking tickets and 
littering, we are not going to have very many Americans who 
could ever put the uniform on. But on the end of that scale, 
there are some things that should be of concern.
    So I appreciate your comments.
    Admiral, do you want to comment because I mentioned, I 
know, it is not active, but I mentioned, I mentioned the Navy.
    Admiral Harvey. Absolutely, sir. It doesn't matter if it is 
not active. It is one Navy and that is the Navy we have to take 
care of.
    You mentioned at the start, sir, that this was my first 
appearance before this committee. And that is absolutely 
correct. I have four months on the job. And while you were 
addressing this issue, I was thinking of what is the issue that 
I have most been concerned about during that four months, and 
the bulk of my conversations with Admiral Mullen, our Chief of 
Naval Operations, and it has been on the recruiting efforts. It 
is what I think about the most. And it is because of what I 
think the environment is going to be increasingly difficult, as 
you alluded to, sir, and so the actions that I am taking right 
now, number one, on the active side, certainly is reinforcing 
success. We have been very successful for a period of years now 
of meeting our targets in numbers and in quality.
    And we are going to make sure that continues.
    I have taken action to increase the number of recruiters, 
to increase the quality of those recruiters, and to ensure that 
we keep our standards high. We had talked about the waiver 
issue. And as the general alluded to, over time, the percent of 
waivers that we have had to apply has gone down, I think, 
significantly.
    And it is important not just to look at that and declare 
success. You look at waivers along with your attrition from the 
active force. And I think you also see, sir, that our attrition 
has gone down steadily over the last few years to almost 
historic lows. So I am confident that we are doing the right 
thing when we get behind the reason for the waivers, as Dr. Chu 
alluded to, and get into the particulars and make sure we are 
making an informed rational decision that gets reviewed up to 
my level, for all those types of waivers that we grant for the 
active force.
    On reserve force, you are absolutely correct, we did not 
meet goals. There is a couple of reasons for that. None of them 
particularly pretty. But one of the things I have done is that 
we will meet the same standard for our reserve recruiting that 
we meet for our active recruiting. And that started the day I 
took the job. And so I am confident that we are going to be 
able to turn that around.
    We have merged our recruiting forces. There is no longer an 
active recruiting force and reserve recruiting force. There is 
one Navy recruiting force. And we are going to recruit to a 
single standard, and we intend to meet that standard. We are 
going to put the resources into it that we need to maintain and 
in our program build, we are going to strengthen our recruiting 
force to take into account what I think will be a more 
challenging environment in the years ahead, sir.
    Mr. McHugh. I am glad to hear you make that latter point 
because, you know, you and the Air Force are kind of on a 
recruiting holiday right now. You are drawn down force 
structure, and that presents you certain opportunities and 
certain leniency if you will, laxities under numbers that the 
other services may not have. But I think it is a very dangerous 
position if we, if you allow yourself to get into the mindset 
of recruiting and retention that you can just kind of mothball 
that effort, and then fire it back up. It doesn't happen 
overnight.
    And I am going to defer my next question, if one of my 
colleagues doesn't ask it, but it goes hand in hand with 
reserve--excuse me, with recruit quality, and that is 
recruiting effort and budgets, and up and down funding that has 
occurred in those initiatives, and what I think is a dangerous 
overreliance. And you don't make these decisions, I understand 
that. But a dangerous overreliance on supplementals to sustain 
in a robust way, sufficiently robust way, a consistency of 
recruiting and retention programs.
    And we will get to that in a minute.
    With that, let me yield to my colleague from Arkansas, Dr. 
Snyder.
    Dr. Snyder. Thank you, Mr. Chairman, we must be watching 
the same late night TV shows.
    Mr. McHugh. You are married. You ought to be having more 
fun than I am.
    Dr. Snyder. But she is in Arkansas and I am here.
    On this issue of waivers, I have two questions. It sounds 
like you all follow this very closely. But Dr. Chu, what is the 
attrition rate? We have had some fairly high dropouts of our 
recruits in terms of their ability to actually make it to 
training programs. Is there a way to monitor the waiver rates 
of attrition and what happens to these folks down the line? Are 
you satisfied that we are moving in that direction on attrition 
rates also?
    Dr. Chu. Yes, I am. I will acknowledge, attrition has long 
been a challenge to DOD. We have tried a number of different 
things, the Army, for example, and others, can speak to that in 
more detail than I can, has modified its basic training 
philosophy approach to emphasize more coaching and less 
harassment, and believes it is showing gains. But, we do watch 
relationship between all these factors and what is driving 
attrition.
    Dr. Snyder. I recall I forgot who it was, one of the 
Hispanic members, a year or two or three ago, made this very 
eloquent, too, if you have such rigorous standards that you 
don't let folks in for second chances historically, there have 
been some people for whom the military has been the door opener 
for them, people who have got GEDs and we don't want to close 
that door.
    I want to ask a specific question with regard to tattoos, 
General Brady, and not your personal tattoos, but we have 
gotten variations amongst the services with regard to tattoos, 
and I don't know if our military culture is different or needs 
to change, and I am asking about a specific young man, but a 
fellow, a young man whose father was career Air Force and he 
decided he wanted to join the Air Force and he was denied 
because of very extensive tattoos.
    Now I looked at his tattoos, and they were cartoon 
characters, I don't know why someone has cartoon characters. 
But it wasn't anything obscene or nudity, but the Air Force 
seems to have a very fairly vigorous policy in contrast, I 
think, with the Marine Corps and the Army with regard to arm 
tattoos. Is this something that is being looked at? Or does our 
generation need to kind of take it--I have women in my office 
with tattoos, and yet we are denying young men the opportunity 
to join the military because of tattoos.
    General Brady. Sir, of all the questions I anticipated, 
that was not one.
    Dr. Snyder. That is because McHugh and I watch late night 
TV. It really bummed this guy out.
    General Brady. It is an interesting question. We mean, 
through our tattoo issue about five years ago, and quite 
frankly, our senior NCOs brought it to our attention and said 
you guys got to do something about this. They became concerned. 
It was at the time when not necessarily the Air Force per se, 
but society as a whole was concerned about gangs, and what 
tattoos might mean and the image that we present.
    Now I realize that there is, to some degree, a healthy, and 
I emphasize healthy, tradition of tattoos, in at least one, if 
not another of the services that is not a--it is kind of not a 
culture we share, but that is not meant to be disparaging at 
all. But we did become concerned about tattoos and our NCOs 
bought it to us. They were concerned about it. And so we have, 
we do have a policy and this is a test question I realize. I 
think I will get this right. A tattoo can--a tattoo can cover 
no more than 25 percent of the exposed flesh, and you can't 
have anything above your collar is basically our standard on 
that. We are pretty happy with it. We haven't had any issues 
with it since it was kind of a dustup a few years ago.
    Dr. Snyder. You won't have any issues with it because you 
are not letting people in. I mean that is, they have issues 
with it. I can understand the concerns about gang graffiti and 
tattoos and that kind of thing, but I think there is also a 
sense there is a changing culture out there that may be, it may 
be something that will progress with time.
    I want to ask my question about the GI bill. General Osman 
pointed out that 1967 was a great year to join the Marine Corps 
because that is when I enlisted. And at the time, we had the 2-
year enlistment, and so I joined the Marine Corps, did my 13-
month overseas tour, came back and then got a 2-1/2-month early 
release to go to college. So I actually spent 21-1/2, but at 
the point of months not years. That enabled me to qualify for 
full-time GI bill benefits, and at that time, they actually 
extended it. So I got 45 months of school paid for, 2 years of 
undergraduate, and 3 years medical school, 45 months 
undergraduate. Here is one of the issues that I want us to 
address. I think the chairman and I have been talking about 
holding a hearing over here. We have had a couple of hearings 
on the Veterans Affairs side about the reserve component aspect 
of this.
    If I am somebody today who has a 6-year enlistment in a 
reserve component force, and I am activated and I spend, let's 
say, 21-1/2 months in active duty, including time in Iraq and 
Afghanistan, come back, decide I have done my 6 years, I have 
been overseas, I have kids, I am going to not reenlist, I lose 
all my GI bill benefit, even though I will have spent the same 
amount of time as Vic Snyder did who got 45 months. And we have 
done that, through the time we said as a retention we want 
people to reenlist in the guard and reserve. But I think we 
have to readdress that. I think it is unconscionable that these 
folks completed their six years, including, you know a major 
activation during a time of war, and they get out of the 
service and they have no GI bill benefit, because they are in 
the reserve component and not the active component.
    We have had two hearings on the Veterans Committee side, 
and with your indulgence, Mr. Chairman, I want to just read 
some comments about this.
    It was on March 15 of 2006, and, we had a series of folks. 
First we had Mr. Carr, you all know these people, Mr. Carr is 
the Assistant Secretary Defense for Reserve Affairs, and--I am 
sorry, Mr. Carr, Acting Deputy Secretary of Defense for 
Military Personnel Policy, and Mr. Hall, the Assistant 
Secretary of Defense for Reserve Affairs. He said in a written 
statement, there was no significant shortcomings in GI bill for 
reserve component. But then we heard from a series of other 
people on the same panel, General Helmly, stated in his written 
statement, ``the cost of college education has risen 
dramatically over the past 10 years, and there is now a 
significant disparity in the dollar amount for the acting 
components, Montgomery GI bill, Chapter 30, and MGIB for 
Selective Reserve Chapter 1606 and 1607.'' that was his quote. 
And he goes on to say we need to have an increase in the 
monetary benefit from the Montgomery GIB, SR.
    General Bergman, in his written statement, said ``the value 
of the reserve component has decreased since its initial 
implementation.'' that was the end of his quote. General 
Bradley's statement--I assume you all know who these folks 
are--reserve component forces, General Bradley stated, 
``Montgomery GI bill originally established reserve education 
benefit, 48 percent of the regular component benefit.'' Regular 
component benefits have increased over time with the result 
that the reserve benefit has fallen to approximately 27 
percent. First we had a decrease from 40 to 27 percent. And I 
think that has gotten several members attention.
    And then we have we had a couple of people, General Young 
and Admiral McDonald, in their oral statements, they also 
specifically stated we need to deal with that, with those 
differences.
    But as you all know, we have several issues going on. One 
of them is our jurisdiction. The reserve component comes under 
this committee, and Mr. McHugh and I have talked about that, 
and the active component comes with the Veterans Committee, and 
it has been easier to deal with the active component, and so we 
have raised the benefit, but they don't go hand in hand.
    So there is a real push by some of the Veterans Services 
organizations to bring those together, title 10 and title 38, 
and Dr. Chu, I would like your comment about that.
    And then the second thing, Dr. Chu, I would like you to 
comment on--or any of the services--is the discrepancy I have 
mentioned between Vic Snyder, 21-1/2 months total in the Marine 
Corps, 13 months overseas, gets 45 months of service, today a 
reserve component member who may have spent 21 months 
activated, including same amount of time overseas, gets nothing 
for the GI bill when they get out of the service. Are there any 
comments you have about those issues?
    Dr. Chu. Sir, you raise a very significant issue, one which 
DOD continues to review. On the second part, as you recall, 
Congress did pass, at the President's request, an enhanced 
benefit, educational benefit for those who are mobilized in 
support of current contingencies that is graduated, based upon 
what they--what period of time they have served.
    I think the more important issue that you raise, is for all 
reservists, would a larger educational benefit be an important 
effective recruiting tool?
    And I think that is a legitimate question for the 10th 
Quadrennial Review military conversation to take on. You are 
absolutely correct, the relationship between the benefit for 
the active force and the benefit for the reserve force has 
changed over the last 10, 15 years.
    And as you suggest, the reserve benefit is a much smaller 
fraction of the active, of the active total. And I do think 
that is a legitimate issue out there, because we do know from 
the history of the volunteer force, the educational incentives 
are an important element, both in terms of a young person's 
appreciation of the attraction of military service and back to 
our inference issue of the advising generation's view of the 
positive elements of military service.
    So I am quite willing to commit that we will take this on 
as part of the Quadrennial Review, try to reach a conclusion on 
what is the right place to be in terms of the reserve benefit 
over the long-term.
    Dr. Snyder. How about specifically, with regard to, and 
maybe some of the rest of you have a comment on the issue with 
regard to the reserve component member loses the benefit when 
they don't stay in the service. Do you have any opinion on that 
today? It seems entirely unfair to me. General Osman.
    General Osman. I would just agree with you, and I really 
think this is an issue, and Dr. Chu has it right. This should 
be taken up by the Quadrennial Review in military compensation. 
It should be an important item for them to address. And thank 
you for raising it, sir.
    I would add that probably today, the GI bill is as 
important as it has ever been. When it was founded after World 
War II, it had a huge impact on the Nation. I see the quality 
of the individual we have today of similar ilk, and would also 
benefit equally from the GI Bill. We are seeing some states, in 
fact, take some very proactive actions to entice the students 
or the service member when he separates to, in fact, use his GI 
bill. In fact, California is one of the lead states in doing 
that. So we are seeing some real interest in the utilization of 
the GI bill to ensure that we maximize its potential. So you 
have raised a good issue, sir. Thank you.
    Dr. Snyder. Dr. Chu, is the Department of Defense dug in 
against the consideration of merging this, breaking down the 
wall between the title 38 and title 10? I just don't see that 
we are ever going to--we talk about the total force, and yet 
when it comes to these educational benefits they are as 
separate as they can be. And they have been divorced for 
several years, and they just have not had any relation to each 
other.
    Are you all dug in against looking at that as a way--what I 
would not want to do is somehow move that to another committee 
of jurisdiction and say hey, no problem, Pentagon is going to 
pay for it. We can't do that. On the other hand, we ought to 
able to do it in a simplified way that the benefits can move 
together so we don't end up with the disparate. Are you all dug 
in against, look at that, breaking down that barrier?
    Dr. Chu. I think you have raised the issue that has led 
people to object to change in jurisdiction, which is the 
question of how it is to be financed in which department and 
which budget is going to be used for this purpose. There is 
also the parallel issue of who administers the program, which 
is, of course, currently Veteran Affairs Department 
responsibility.
    Let me emphasize that we have, in this administration, 
tried to improve the relationship between DOD and VA. We 
created a joint, executive council, Gordon Mansfield, the 
Deputy VA Secretary coach and myself, and underneath that, we 
created a benefits executive council and tried to deal with 
these kinds of issues. But we are delighted to look at it 
again, sir.
    Dr. Snyder. Mr. McHugh told me the other day we have talked 
about the possibility of holding some hearings specifically on 
the GI bill where we could really drill down it, because I 
think it is really important, and when we look at issues like 
retention and recruitment, and so we analyze it, well, if we 
have this benefit, will this person stay in? But, we may forget 
what it means overall, what about the guy out there who got 
out. What is he telling his friend now, about how he was 
treated? I got nothing because I wanted to get out. I put in a 
good 6 years, 18 months overseas and I got nothing. And you 
have all those issues, too.
    Plus what it means for our country in terms of having these 
young men and women come out, war veterans, who are going to 
college. That is what drove the middle class in the 1950's and 
1960's was the World War II and Korean War veterans taking 
advantage of their GI bill benefits. So I think it is a bigger 
issue than just how does it impact on this year's retention and 
recruitment.
    Dr. Chu. I disagree with you, sir. I do think there is a 
factual disagreement here. You do get a benefit if you 
mobilized the current contingency. It is graduated, based upon 
the length of service that you serve in mobilized status. So to 
say you get nothing, I think, is not accurate.
    Dr. Snyder. Well, I would be glad to look at this. Isn't 
that benefit dependent on you staying in the guard and 
reserves?
    Dr. Chu. Yes, there is a retention element. But there is 
also an underlying guard and reserve benefit to start with, so 
I think it is not quite fair to say you get nothing.
    Dr. Snyder. All right, well, we may have a full hearing. 
But the issue is, you are treated differently, if I get out of 
the military as an active component, I get my full benefits. If 
I get out of the military as a reserve component member, I do 
not get my full educational benefit. I think that is clearly 
the law.
    Do you agree with that?
    Dr. Chu. The two components are treated differently, 
absolutely. They have different terms of service, different 
conditions of service. That is a wide-ranging, fundamental 
principle that the Congress has enacted.
    There are differences, yes, sir, but it would be unfair to 
say they get nothing.
    Dr. Snyder. I will just close by saying, I think it is 
unconscionable how these young men and women are being treated 
now that have served their Nation in a time of war and 
completed an enlistment contract and get out and are not 
treated the same. Thank you, Mr. Chairman.
    Mr. McHugh. Thank the gentleman. And we did talk about 
this. And, we have, I think, the jurisdictional problem of the 
agency that pays for it, wants to control it, which is 
different between the active and the reserve, or excuse me, the 
active and the retirees. But we talked about a hearing. We are 
pursuing that. And I think it is a very worthy objective.
    Gentlelady from California.
    Ms. Davis of California. Thank you, Mr. Chairman, and thank 
you all for being here. I certainly appreciate your service and 
your openness on a number of issues. So I am going to challenge 
you to be open on an issue that is a difficult one, and it is 
in light of the discussion that we are having in terms of 
waivers in terms of whether or not we have the best and the 
brightest people in the service.
    And, I wanted to just turn to Blue Ribbon Commission 
reports that the University of California had done that 
concluded that the DOD had spent over 360 million to implement 
its ``don't ask don't tell'' policy from 1994 to 2003.
    And from that report, my understanding is it is almost 
twice the estimate of those costs, the report that we reported 
last year by the General Accounting Office (GAO).
    And a lot of the examination of those records would 
indicate that those who were discharged under the policy, tend 
to have higher skill and higher training levels than the 
average service member. And we are talking now about whether or 
not we are actually including waivers and having some, perhaps, 
diminution and perhaps small in terms of educational levels as 
well.
    The exclusion of openly gay and lesbian Americans from 
service in the Armed Financial Services may, in fact, deter 
many potential gay and lesbian recruits from pursuing military 
service in the first place. And of course, on the other side of 
that, we can argue that it deters other individuals perhaps 
from getting in if the policy were different.
    And it is difficult to talk about this. And yet, I think it 
is important to engage on it and try and understand it. And see 
whether or not we actually are not encouraging some of our very 
skilled individuals to come into the service, whether it is 
linguistically or whatever has been decided. I know that it is 
easy to say, well, this is the policy, this is the law of the 
land right now.
    But can you, from your perspective and from your 
discussions as well, help us to understand better whether this 
is something that should be looked at again, whether it is 
something that you feel is an out for people in some way?
    I have heard that, in fact, people have used the ``don't 
ask don't tell'' policy as a way of getting out of the service, 
even if, in fact, they may be not have that as a legitimate 
excuse. I guess my response to that is why give people an out, 
if that is the case. Can you help me understand that?
    Dr. Chu. Ma'am, this is an important issue. As you noted in 
your comments, it is not really a policy, it is statute.
    This is enacted by the Congress, 10, 12 years ago, lengthy 
debate, lengthy consideration. My sense is it is where the 
Congress would be today, again, if another look were taken at 
it. My further sense is probably where the country is. And your 
votes reflect that.
    On the University of California study, my recollection is 
that those members are members over a 10-year period, so that 
is on the order of $30 million a year, that is not a large 
number. I don't want to get into a quarrel between GAO's 
numbers, which is your official, our official agency, and UC 
scholars on this point. Although, I think people tend to have 
great faith in the GAO's estimates in these matters.
    On the issue of do people use it as an out? I am sure. 
General Powell, when he served in the military, was fond of 
saying, I am confident there is somebody out there at this very 
moment doing something I don't like. So I am sure some people 
may have been successful in using this element of the statute.
    But that is not our policy in terms of how we implement it. 
This does have to be actual conduct that is inappropriate.
    Or avowals that indicate that you can't, you, the 
individual member of the service, can't abide by the of 
provisions of the statute. My sense is the military services 
certainly seek to do a fair, just and appropriate enforcement 
of the statute.
    I defer to my colleagues on any specifics they wish to 
address.
    General Hagenbeck. Thank you. It is an important topic, of 
course, but to put it in context, as you cited there over the 
10-year period from GAO, our numbers reflect less than one 
third of one percent of the discharges from the Army have been 
for homosexual conduct discharge.
    And so, it pales in comparison with those that are 
discharged for serious offenses or even weight standards, if 
you will.
    And so, to address the point that some folks may misuse 
this to be discharged, our experience is that if a soldier 
wants to leave the Army, they will find a way to do it.
    And if this were not one of the options that were there, 
they would find another way to do it, whether it was through 
drug use or some serious offense.
    Ms. Davis of California. Could some of you respond to the 
skill levels as well as, though, are we discouraging 
individuals? And, in fact, once people are in the service, and 
they feel harassed, which certainly you must be aware that that 
is an issue and a problem. To what extent are they able to 
serve as capably as they would be able to, and if the policy 
were not there, would there be a difference?
    Dr. Chu. The statute is not about orientation, it is about 
conduct. And that is--this is back to Chairman McHugh's opening 
statements and further questioning. We set a high standard on 
conduct before you come in, and we set an even higher standard, 
as I think you appreciate and the subcommittee appreciates, 
after you come in. So if your conduct doesn't measure up, yes, 
we will take action against you. And this is just one of the 
many elements of conduct--this one is statutory--that these 
gentlemen, their colleagues, the commanders of our units are 
charged to enforce.
    Ms. Davis of California. My time is up. Thank you, Mr. 
Chairman.
    Mr. McHugh. Mr. Jones, the gentleman from North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    I thought when you were talking about the TV shows you were 
watching that I might mention that I must really be bored. I 
watched William Delahunt on the floor talking about the budget.
    Mr. McHugh. Neither one of us have very much to brag about. 
Bill is a good man. I don't want to get in trouble.
    Mr. Jones. I can't help but think about--you were talking 
about recruitment and retention, and the first Armed Services 
Committee meeting, I believe, that Secretary Rumsfeld came to 
five years ago--and it might have been John Hostettler's 
question or mine--but he said the Department of Defense would 
be so efficient that we would be able to account for every one 
dollar spent.
    I realize we all have dreams and goals. Some are realistic. 
Some are not. But it brings it to this point about the 
recommendation--and this is really not my question. I just want 
to make a statement, but it is going to lead to the question. 
The DOD is saying to the retirees that we are going to have to 
increase the fees. You are going to have to pay more of your 
health care.
    Then I remember about a month ago a DOD inspector general, 
an auditor, whatever the title was, was sent to Iraq to see if 
he could find $8 billion that has been lost during this war.
    My question, though, is because--I want to compliment every 
one of the services here today, because I know that you have 
really scrambled and some it has been easier for than others to 
meet your goals, but you have done it and should be 
complimented for that.
    I want to talk to you about the Selective Service Board. I 
think about General Shinseki, General Zinni, Senator McCain, 
everyone that said that we probably should have a minimum of 
200,000 to 300,000 troops in Iraq if we were going to do it 
right. And I know that can be debated. I am not going to bring 
that up for debate. But my question, though, is how often do 
you or the Secretary of Defense meet with the Director of the 
National Selective Security Board?
    Because I believe--I hope we don't get involved in another 
land war somewhere, but who is to say we might not. And with 
all that I have heard for over a year about recruitment and 
retention, how often do you all meet with--I think it is Mr. 
Bill Chatfield. How often do you all meet to talk about 
contingency plans if we get into Iran or North Korea or 
wherever? How often do you meet to discuss what the fallback 
position is to make sure we have got enough troops?
    Dr. Chu. Congressman Jones, DOD is committed to a volunteer 
force. In a study decision, that is the right course of action. 
Yes, there still is the Selective Service System on standby; 
and, yes, I have conferred with Mr. Chatfield on a number of 
issues. Because Congress mandated certain reports over time, so 
I do see him from time to time.
    But let me underscore our fallback position, so to speak, 
is the volunteer force. That is why we are so committed to its 
successful sustainment. That is why we are so grateful for the 
partnership of this subcommittee and the committee as a whole 
in giving us the tools that has made it possible to carry out a 
series of very demanding deployments, essentially back-to-back 
deployments for many active Army personnel over the last four 
years or so.
    Mr. Jones. Can you tell me how often you all meet on a 
regular basis of once or twice a quarter, or once a month, once 
every six months to say that if we get into this dilemma that 
he we need to consider activation? I just think we need to know 
this as a national security issue. We need to know this as a 
backup. Do you all have this conversation? Maybe we should 
bring the Selective Service chairman in at some point if we 
have time. But I want to know that you do have a plan that you 
have developed with the Director--if that is his title----
    Dr. Chu. Yes, that is his title.
    Mr. Jones [continuing]. That you have a plan that if we 
reach this bottom number that we are going to have the plan 
ready to go. Do you all have that set up?
    Dr. Chu. Selective Service has its standby capacity. I have 
talked with its Director on a variety of issues over the last 
two years.
    Mr. Jones. In the last three years?
    Dr. Chu. He has only been in office for a year and a half 
or so, if I recall correctly. I have to check the records here.
    But let me emphasize I don't want to give any comfort to 
the thought that we are thinking of retreating from the 
volunteer force concept.
    Mr. Jones. I am not asking that. I think the volunteer 
service has worked extremely well. But there--again, the 
volunteer service has worked extremely well. We are in a 
different world right now. I mean a totally different world.
    I am not trying to argue. I am just trying to find out that 
you have a systematic, an every-so-often we meet with the 
Director of Selective Service. Because I think, if you don't, 
it is like me at 63 giving up all my insurance, that I don't 
need it. That is absolutely unacceptable.
    I would appreciate, Mr. Chairman, because I see my time--I 
will stay for another round, if possible, but I would like for 
you to please, to this chairman and the ranking member, send a 
letter for this committee and give us the times and how often 
you have met with the Director of Selective Service.
    The reason for this--because I hope volunteer services work 
forever, but I am being realistic. When you have got the 
national polls showing that the American people, less than 35 
percent support being in Iraq, they are talking to their 
children, whether we like it or not. We have got to have as a 
Nation that backup. And you are telling me--I mean you have 
answered my honestly, but sounds like to me that there is not a 
whole lot of discussions going on.
    If you want to keep them private and out of the public, 
that is fine. But we in Congress, if we want to have a closed 
meeting to find out what we are doing, then I would request--I 
am not sure the chairman would grant that, but I would request 
that. What you are telling me is not telling me a whole lot.
    Mr. McHugh. Would the gentleman yield to me? Your time has 
expired.
    Mr. Jones. That is what I thought, Mr. Chairman.
    Mr. McHugh. Let me just say, the gentleman raises some 
important points. As I know he knows, the only way Selective 
Service registrants can be accessed is if Congress authorizes 
that. Why don't we take a look at perhaps having Bill up and 
talking to us in a briefing?
    I don't want to close the door on the potential of a 
hearing, but I don't think that kind of structure is necessary. 
You have one director, and we will have him up, and he can talk 
to us about where they are.
    It is really a numbers issue. If they are registering those 
who should be registered, if they have the proper documentation 
as to where they are--although I would certainly echo Secretary 
Chu's comments that it doesn't seem even remotely necessary--
but, obviously, we are maintaining the system. There is a 
purpose in maintaining the system. So let's see what we are 
getting for that effort. I think that is a legitimate request. 
So if the gentleman agrees, we will try to pursue that.
    Mr. Jones. Thank you.
    Mr. McHugh. The gentleman from Texas.
    Mr. Conaway. Just to digress on that, I would hope that we 
do this in ways--and I hope my good colleague from North 
Carolina is not intentionally trying to inflame the world the 
way our Democrat friends did a year or so ago by introducing a 
bill to go to a Selective Service. The line of questioning is 
unnecessary, and I am hoping that your intent was not to 
further your own personal drive to get us out of Iraq by 
scaring people. It is unworthy of us to do that, Walter; and I 
would rather you not do it.
    Mr. Jones. Would the gentleman yield?
    Mr. McHugh. You have to ask the gentleman.
    Mr. Conaway. Absolutely.
    Mr. Jones. I assure you that my question is of great 
concern about national security and great concern about what 
could happen in the world ahead of us. It has nothing to do 
with politics at all.
    So I thank the gentleman for yielding to me.
    Mr. Conaway. Dr. Chu, in some of our staff briefing 
materials there is some indication that the services intend to 
rely on supplemental appropriations for the back half of the 
recruiting budgets, the back half of the bonus budgets, and 
that the Navy and the Air Force have actually reallocated 
resources away from recruiting because of the circumstances 
within those services.
    The two questions are, one, supplemental funding for just 
normal pay is not necessarily the right kind of supplemental 
concepts that most of us have agreed to; and then comments from 
the Air Force and the Navy that, obviously, you can't go 
forever. As you bring down the size of your service, you have 
got to continue to bring people in at the bottom to percolate 
up.
    Can you respond without having to have new resources 
outside your budgets to get that done over the foreseeable 
future?
    Dr. Chu. Let me try to answer your broad question and turn 
to General Brady and Admiral Harvey on the specifics of their 
individual service context.
    Yes, particularly the Army is relying importantly on 
supplemental funding for the balance of its budget. I have 
discussed this at great length with Secretary Harvey personally 
on several occasions. We have agreed that he is going to 
execute and is executing his program with the assumption that 
money is there. So we are proceeding on a premise of success of 
supplemental funds.
    I would also acknowledge, as Chairman McHugh has 
emphasized, sort of not my area, how we finance these things. 
It is the Comptroller and Office of Management and Budget's 
(OMB's) decision. But there have been theories over the last 25 
years of what does or not go into supplemental. At one point, 
the pay raise went into the supplemental. We changed that 
practice in the 1980's.
    We have been in different places collectively about what is 
the right financial vehicle, but what is more important is the 
commitment by the Secretary of the Army personally, and he is--
and I think that is behind the success the Army is seeing--
executing a program on the full trajectory that is the sum of 
the supplemental regular budget.
    Mr. Conaway. Dr. Chu, I understand he is committed to that. 
I used to be in banking. If we called the loan and it didn't 
come, you didn't get the money. If the supplemental doesn't 
happen, are you going to----
    Dr. Chu. My view is Secretary Harvey is committed to 
proposing a reprogramming if it doesn't come. We believe the 
supplemental will be there. Everybody appreciates--while we 
have been talking this morning about an all-volunteer force, it 
is, in the end, an all-recruited force. It is critical we 
sustain these resources at the right level. I think that does 
speak to the Air Force and Navy situation. We don't want to, 
when the budget is pressed, to put extra money in recruiting in 
those service areas where that might not be needed.
    Mr. Conaway. Some comment from the Navy and Air Force about 
at least acknowledging you are on a bit of a recruiting holiday 
or enlisting in less difficult circumstances than the Marines 
and Army, in terms of the money you are spending recruiting.
    General Brady. I think Admiral Harvey and I--neither of us 
feel like we are on a holiday, recruiting or anyplace else. 
Actually, as we get smaller, as the Navy is--and I certainly 
won't speak for him--but as you get smaller, every recruit you 
get has got to be exactly the right recruit.
    So I know there is a temptation--in fact, it becomes a 
reality. If you reduce the number of people you are bringing 
in, people are going to reduce your recruiting budget. There is 
a cost of doing business when you recruit, and as you get 
smaller in some ways recruiting becomes more difficult because 
the people you need the most, the most difficult to recruit, 
are people who have other really good options in the civilian 
world. So it is a challenge to get those people.
    We have tried really hard to keep our recruiting consistent 
and to keep our budgets pretty consistent, and one thing we 
have done lately is we think we have got about the right number 
of the people in the field recruiting, but what we are looking 
at is making a portion of our people--not all of our people but 
a portion of our people career recruiters. In other words, some 
of our more senior people to be career recruiters. We like to 
have operational people be recruiters, because they are the 
people that can relate to young recruits about what the Air 
Force is really about.
    So we don't ever want to go to an all-professional 
recruiting force, because we think that force gets a little 
staid in terms of their operational currency. But we are moving 
toward some percentage of our folks that, as they become more 
senior and they are in management positions, they develop 
recruiting policy for us, that they be people who are more 
experienced in the recruiting business.
    We really feel--we are not lackadaisical at all about the 
recruiting business. We have had great success. We are grateful 
for it. But we are knocking wood. Our challenges will come. It 
is inevitable. So we are not relaxed at all about it, actually.
    Admiral Harvey. Thank you for asking that question. This 
goes to the heart of an issue that we talked about in my first 
office call with you, sir, some months ago and to the 
chairman's point about we are going to flatten out, we are 
going to get to a number, and when we get to that number, the 
recruiting mission that we will need to sustain that number is 
not the one we have today.
    The recruiting mission today and our retention goals are 
tuned to give us that force decrease that we have been 
experiencing over the last several years. As Admiral Mullen 
testified to the full committee in his testimony, we are going 
to get to this number; and my job is to tell him, A, what that 
number is and, B, what are the recruiting resources that we are 
going to have to get to sustain that number.
    So to your point, sir, my recommendation to my boss is 
probably going to be we are going to have to increase the 
number of resources, the amount of resources in terms of the 
people recruiting, in terms of the dollars we support 
recruiting with to maintain the quality of the force we have 
talked about already that is so critical to our future and get 
at that and have to actually do that.
    As General Brady just told you, as you get down to this 
smaller number, you cannot bring just anybody that you can find 
to raise the right hand and say I do. We are going to have to 
go out and find the right person with the right skill set, and 
these people are in great competition elsewhere. This 
recruiting job is going to get harder for all of us, and we are 
not on a holiday, don't anticipate getting on one anytime soon, 
sir.
    Mr. Conaway. Thank you, sir.
    Mr. McHugh. Thank you, gentlemen.
    I appreciate Mr. Conaway pursuing that point I made earlier 
that I think is an important one. I understand fully you folks 
don't make this decision, but I think it is an important point 
to make.
    As we as a subcommittee look at the current year recruiting 
budget overall you entered the year, you expected about $500 to 
$700 million to come out of supplemental because it wasn't 
embedded in the base budget. Frankly, given the fact that we 
don't have a supplemental passed yet, hasn't gone to 
conference--even if that were the case, I am not sure we would 
know then how much was included for recruiting. Because, at 
least insofar as the House bill is, there is no line for that. 
Your level of confidence can't be all that high your money is 
going to be there.
    I appreciate your commitment to that, and he is a bright 
guy, and he understands the necessity of that mission, but that 
is him looking at taking it out of hide somewhere if it doesn't 
come true. Do you have any idea what is included in the House 
bill for recruiting? I can't find out.
    Dr. Chu. The recruiting element is part of DOD's request.
    Mr. McHugh. It isn't lined out, Mr. Secretary.
    Dr. Chu. I would take the positive view it gives us 
additional flexibility. That might be best justified----
    Mr. McHugh. I admire your optimism, David. This is half 
full. As we look at 2007, the Army's looking at a $250 to $350 
million bogey that is going to have to be made up in the next 
fiscal year in a supplemental we haven't seen.
    Just for the record--and you don't have to comment. It is 
no way to run a railroad. It is certainly no way to run 
recruiting and retention. You have got to have identified, 
reliable sourcing; and part of the problems we have right now 
in recruiting programs is that we have been on this up-and-down 
roller coaster.
    You are right, Mr. Secretary. We have done it in a variety 
of ways, sometimes in the base budget, sometimes in 
supplementals. Every time we have done it in supplemental, we 
have done it the wrong way. Not your decision. I have made my 
point. I will rest my point.
    Let's talk about pay raise, 2.2 percent in the base budget. 
Over the last seven years, all of us together have acted to 
pass pay raises that were at least a half a percent above CPI, 
the calculated pay raise for the private sector, trying to do 
some things to make the services a better career opportunity 
and, of course, to remunerate those brave men and women that 
serve us.
    Why are we just equaling CPI this year? Do you feel we have 
overcome the challenge or how do you posture on that?
    Dr. Chu. Obviously, this is a results-oriented decision. It 
depends on how we believe we are postured.
    One of the important indicators we do use, as you 
appreciate, is the recommendation of the 9th Quadrennial Review 
of military compensation, that we peg the package at the 70th 
percentile, meaning better than 70 percent of what Americans 
with similar education experience enjoy, for our force as a 
whole. That therefore is, as you appreciate, influenced by the 
basic pay raise, also by decisions on the housing allowance and 
on the subsistence allowance, which are part of that 
calculation.
    We believe that when you take into account both the housing 
allowance changes already made and those embedded in the 2007 
budget request, that the base pay rates for everyone at 2.2 
percent, which is the employment cost index change in the year 
ending 30 September 2005, is the right number as the base pay 
raise.
    We do believe and we are hopeful that we will have before 
you shortly--I apologize for the delay in completing this--a 
proposal for an additional increase under authority you earlier 
gave DOD on April 1st of 2007 for the noncommissioned officers 
and for the warrant officers that would vary in the pay table. 
We have found very effective in being judicious in the use of 
personnel resources what people have called targeted pay 
increases, looking at individual points in the career.
    Are we at the right place against these standards, both 
results and this benchmark of the 70th percentile of comparable 
civilian personnel? We think that for the force, officers as a 
whole and junior enlisted communities, we are at the right 
place.
    We are a little weak, in our judgment, against where we 
think the noncommissioned officer and warrant officer groups 
ought to be; and that additional pay raise would correct that 
deficiency.
    Mr. McHugh. Thank you. I wanted to get your comments on the 
record.
    As you know, in fairness, the second panel is coming up, 
and distinguished members all, and are probably going to talk a 
little bit about the Senior Executive Council (SEC) test, the 
establishment of the Defense Advisory Committee on Military 
Compensation, a wide range of proposals involved there. Some I 
found extraordinarily interesting. Did you want to say anything 
about those prior to the second panel?
    Dr. Chu. Let me just say this, sir, to emphasize, as you 
have in your comments and your questions, we are just now 
receiving the report of the Advisory Committee. It is a very 
interesting report. The DOD has made no decisions that it 
either supports or opposes any particular element of what the 
committee is recommending. We do intend to take the committee's 
report, which I believe will get to us sometime later this 
month, as a foundation element of the Tenth Quadrennial Review 
of Military Compensation, which we have started and the statute 
requires.
    My expectation--our goal is to be ready to come back to you 
in the cycle next year at this time with our conclusions on 
these, the DOD's position on the various elements.
    Mr. McHugh. So you haven't ruled out or definitely adopted 
any component of that.
    Dr. Chu. Absolutely right. We have just ourselves been 
briefed at a very early stage, a first-rate briefing on the 
main recommendations of the report, but it is early days in 
terms of deciding which elements are meritorious, what package; 
and really what I think the committee is recommending is we all 
step back from what we historically received, our inheritance, 
so to speak, of the way we approach these issues and take a 
fresh look at a number of foundation elements.
    I think it is a very challenging report, at least in terms 
of the outline summary we have seen, raises a number of 
interesting issues. But we are not prepared to comment pro or 
con at this juncture.
    Mr. McHugh. Fine.
    I want to close on a comment--well, a couple of questions 
and a comment, try to help you. I want to be helpful.
    I went to college, took the SATs, studied hard for them, 
didn't do all that well, should have studied harder. Went to 
graduate study, took the GREs, studied harder for those, did 
better.
    Secretary Chu, I look at your educational background; and, 
boy, is it impressive. When you went to school, did you take 
SATs?
    Dr. Chu. Yes, sir, I did.
    Mr. McHugh. Study for them?
    Dr. Chu. I don't recollect. It is too long ago.
    Mr. McHugh. Really. Then you must not have. Because, if you 
did, you would have remembered it.
    Let me--General Hagenbeck, you took them to get into the 
Point, didn't you.
    General Hagenbeck. I did.
    Mr. McHugh. Study for them?
    General Hagenbeck. I did.
    Mr. McHugh. Damn hard, I bet.
    General Brady, you took bachelor of arts, University of 
Oklahoma. Study when you took those entrance exams?
    General Brady. I did not study for them.
    Mr. McHugh. At all?
    General Brady. No.
    Mr. McHugh. By God Almighty. Masters? You didn't study for 
GREs?
    General Brady. I did for the GRE.
    Mr. McHugh. I have got political science. Studied for 
those. On and on and on.
    I have got to tell you, every college student today that I 
am aware of, before they take an SAT, a GRE, an MCAT, whatever 
it is, studies. Every lawyer in America--and I took the LSATs--
certainly 90 plus percent go to a Kaplan course, some kind of 
course to study. You get a book of past tests.
    I have outlined some of the concerns I have got about 
erosion, category fours, taking category fours--taking people 
on moral waivers. You assault somebody; that is okay. 
Experimental drug use; as long as you experimented, that is all 
right. Robbery, shoplifting; come on in. But take a study 
course for our entrance exam--nonsense.
    I was stunned to find out in the armed services military 
personnel accession test and program you have a prohibition 
against participation of the services in any way of a program 
that will assist--and in this case marginal--but really any, 
any recruit, potential recruit preparing for the ASVAB test. So 
you are going to take somebody who beat somebody up, gets 
drunk--not you specifically--gets a little drunk, does some 
marijuana, but, Goddammit, don't study for that test.
    Does that sound stupid to you, Mr. Secretary? It sure 
sounds stupid to me.
    Dr. Chu. I think we have to step back and ask what we are 
trying to accomplish. We are trying to measure the aptitude of 
the individuals. You could go to a regime like SATs where you 
invest heavily in preparation, but then you have to be sure 
that you invest heavily in everyone's preparation, not just a 
few people, or you skew the outcome. We would have to rethink 
both the content and how it is done.
    I am not a test expert, but this is a test that has gone 
through many iterations to get to the present model, which has 
served us very well in predicting people's ability to accept 
the kind of training that we have to give in a high-technology 
environment and to be effective in the post to which they are 
assigned.
    The level playing field we have created--you are absolutely 
correct. The services are not to assist people. Because the 
slippery slope which you perch yourself is some recruiter 
thinks he is going to help Ms. Jones extra and maybe give one 
or two answers out. So you don't want to be in that position 
because you are trying to measure--the benchmark is--that is 
the way it was given to standardize the test, to create the 
norms against which we then measure all those who come through 
the recruiting process, is no formal preparation. What they do 
on their own, they can select.
    We have concluded we should not be in the test preparation 
business. If it is your direction to change, obviously, we will 
carry out that direction. But we would have to change the whole 
system and come back to the issue Congressman Snyder raised, be 
sure it was a level playing field, everyone got similar 
preparatory assistance to be sure we are accurate in measuring 
what we are seeking to determine, which is your aptitude--that 
is what this is about--your aptitude for this training and 
these assignments.
    Mr. Conaway. Would the gentleman yield?
    Mr. McHugh. Let me make one point, and I will be happy to 
yield.
    First of all, the SAT is hardly a measurement across the 
board on any equitable basis. Because you study--I don't know 
what Kaplan costs any more on LSATs, but I suggest it is 
probably well over a thousand dollars. It is pay to play.
    I am not suggesting that an individual recruiter be out 
there conducting preparatory classes for anybody who is going 
to take the ASVAB. I am concerned if there were contracts in 
the works--and I am not saying the contracts were good. I am 
not saying they should have gone forward. But the reason I 
understand they were interrupted is because somebody cited this 
and said we shouldn't be involved.
    It seems to me that if every service offered to every 
recruit the opportunity on an equal basis to take that kind of 
course, that keeps it as equitable as possible. And if we are 
finding ourselves in a recruiting environment where we have to 
waive in people who have done drugs and who have been involved 
in robbery and assaults, maybe it is not so unreasonable to say 
to folks maybe you don't take a test well. Some of the 
brightest people I went to college with did not test well.
    Dr. Chu. That is exactly why we don't say zero for Category 
four. We recognize there is distribution, many different kinds 
of talents out there, a distribution of talents. Not all talent 
is evidenced in the test result. We also recognize there is 
error. There are errors in the tests. We have had all the 
national commotion over the SAT scoring issue. So there are a 
whole set of issues out there.
    In the end, what is at stake is are we measuring accurately 
the aptitude of the population. The outcome I think you are 
describing is we get the same distribution. If we gave 
everybody preparatory courses, we would have the same outcome. 
We would have an additional burden, resource cost to do that, 
but we are not really going to change the outcome in the end. 
The test measures--or at least that is what the test experts 
have assured us--the test measures the aptitude of the 
population we are recruiting. That is all it does.
    Mr. McHugh. It does, but it can also move you from a four 
to a three or a three to a two.
    Dr. Chu. I think what I am arguing is, if familiarity of 
the questions is at the level it now exists and we raise 
everybody up, it is still going to create the same distribution 
because we norm it against the national population. This is not 
an absolute element. It is a normed standard.
    Mr. McHugh. That is assuming that input has exactly the 
same output. I was a political science major. We didn't get 
into much of that. But I think that is an erroneous assumption.
    I made my point. I will conclude and yield to the 
gentleman. I just think that doing what we are doing to meet 
recruiting numbers and seeing the erosion in quality--and I 
don't mean to cast aspersions on those folks who are signing up 
today or tomorrow or the next day. That is not my objective and 
not my point. But to do that while at the same time saying 
perhaps we should look at the efficacy of providing what every 
college student--potential college student and graduate student 
does in America today, and that is the opportunity to prepare, 
is kind of silly based on a ``hell no'' regulation.
    This is not anything that allows any kind of flexibility, 
any kind of opportunity to study. It just says no. I think it 
puts the dah in dumb.
    I made my point. I will be happy to yield to the gentleman 
from Texas.
    Mr. Conaway. I am a CPA, and I did study for the certified 
public accountant (CPA) exam and also spent seven and a half 
years trying to regulate CPAs and the entry--to make sure the 
exam was fair. We used a group of scientists that I had never 
heard of called psychometricians. People actually feed their 
families grading tests, deciding whether or not the test makes 
sense, along the lines what Dr. Chu is talking about.
    The idea of the CPA exam is to set the minimum bar for the 
entry into the profession, in this instance, entering into the 
armed services. There are people, Mr. Chairman, who do look at 
tests like this to say, all right, if our base is for everybody 
to have no preparation for the exam, then we can measure the 
exam results against that standard. If, on the other hand, we 
have everybody takes a certain preparatory course, then we 
would expect a different level of performance on the exam. We 
are just grading these people against themselves or a standard.
    So the question is, Dr. Chu, are you using psychometricians 
to evaluate the tests?
    And the other thing we did in the CPA world is you had to 
decide what were the minimum standards to get into the 
profession, what kind of work would you do the first two years, 
first four years. So you go through an analysis of all those 
capabilities and then you try to figure out how to do that.
    I expect the same would go on here, where we need to know 
what it is that we want a young recruit to be able to do and be 
successful, given the huge investment that we are going to make 
in the training, investment we have made in the recruiting. 
Have we got the right kind of scientists looking at that to 
make sure we are measuring what we ought to be measuring in 
terms of how somebody is going to be successful once they are 
in the service?
    Dr. Chu. Yes, sir. You described exactly the process we go 
through; and, yes, we do have an extensive psychometric staff 
effort behind this test to produce what you described.
    It has several different parts. While there is an emphasis 
on the raw score in terms of basic eligibility, the services 
use the subparts of it to help direct people to those elements 
of the force that they have the greatest aptitude for and where 
their underlying aptitudes will have the greatest payoff for 
the Nation.
    Mr. McHugh. Were you referring to the ASVAB test has 
several parts?
    Dr. Chu. The armed forces qualification test has a whole 
series of subparts. There are different scores for different 
talents.
    Mr. McHugh. As they gave me in college. What would you 
rather do?
    Dr. Chu. It measures different talents. There is an overall 
score, but there are sub elements.
    Mr. McHugh. Has, to your knowledge, the Department of 
Defense tested the efficacy of having a test to familiarize 
people with the constructs of that several-part exam?
    Dr. Chu. I have to look into that. I don't know off the top 
of my head.
    Mr. McHugh. Would you? Thank you very much.
    Dr. Snyder.
    Dr. Snyder. Dr. Chu, is it psychometrics? How do you spell 
that?
    Mr. Conaway. They are, by the way, actuaries with less 
personality.
    Dr. Snyder. How do you spell the word?
    Mr. Conaway. P-S-Y-C-O.
    Dr. Chu. Psychometrics.
    Dr. Snyder. I used to think the answer, Mr. McHugh, was if 
you had like all the state capitols and multiplication tables 
tattooed on your arms you could go into the test and that would 
help you, but then the Air Force won't give you a waiver on the 
tattoos, so that is not such a good plan after all.
    Dr. Chu, you began, I think, your opening statement talking 
about the nobility of military service, and I really believe 
that, and I think that is true all the time, regardless of 
whether we have foreign policy discussions in our country. 
Because we are always going to have commanders in chief that 
make foreign policy decisions that we don't all agree with, but 
the nobility of military service, we always need to be speaking 
for that, regardless of, in my view, where we are at with 
regard to whatever foreign policy disputes are going on in the 
world at that particular time.
    You mentioned the Academy appointments. We are having an 
Academy night in a couple weeks. Our numbers are so small for 
the actual appointments, I can't follow any trends. Have you 
all--are there trends in Academy appointments? It seems like it 
has been fairly robust, but are there any numbers out there 
that are good, bad, holding our own with regard to the Academy 
appointments?
    Dr. Chu. Let me cover that briefly and turn to my 
colleagues.
    I think the interesting issue is applications. The bottom 
line is we believe we are continuing to get a good flow of 
high-quality applications and terrific applicants and 
appointees to the Academy. There was a surge in applications 
after 9/11; and we have come back down from that surge roughly 
speaking, if I recollect correctly, to where we were before 9/
11. So we have seen a peak but a return to an underlying trend.
    General Hagenbeck. Sir, that is exactly right. The trend 
pre-9/11 and over the decade that preceded that.
    Dr. Snyder. I had wanted to ask one specific question on 
this recruiting budget discussion you had, Dr. Chu. Regardless 
of where the money comes from, I assume that you follow what 
you spend very closely so that you can compare year to year how 
much is going in this slot, how much in this slot, whether it 
is working or not, so you can follow very closely regardless of 
whether you get the money on supplemental or through the normal 
budget process, is that correct?
    Dr. Chu. Our tracking starts with results. That is, of 
course, the most important issue, how are we actually doing. 
Then we back up to which instruments are proving most effective 
and are we--if we are facing challenges, as we have in the last 
two years or so, are we adding to those instruments that we 
believe from history and analysis of the past data would argue 
are the most effective.
    One of those instruments, of course, is recruiters. This 
was, I think, part of the problem the Army encountered about a 
year ago in the terrific results of calendar 2003. We had 
decided as a department that we could cut back on Army 
recruiters because, as General Brady testified, we want the 
right number but not excess effort here. While, of course, the 
recruiting situation got more difficult faster than we could 
react. Because once you take a recruiter out of the field, 
putting somebody back in the field does take a period of time, 
and I think that is an important element of the recent history 
in the Army case specifically.
    So our monitoring is focused on results, on the instruments 
most useful to producing those results, which will change over 
time; and we are grateful for the authority on bonuses that the 
Congress has given us in the last two authorization acts, very 
important instruments. It is less on how much money is there 
except insofar as that is the bottom line. If we have this many 
recruiters in the field or pay these bonus, there has to be the 
resources that are consistent with those decisions.
    Dr. Snyder. We just want to have the information from you 
in case we need to respond in some specific way.
    My last question, Mr. Chairman.
    Dr. Chu, would you discuss--I don't know if you need to go 
to individual services, but my understanding is we are having a 
bit of challenge with regard to our health profession 
scholarships or Medical doctors (M.D.s) and dentists. Is there 
any need for us to do anything legislatively this go-round?
    Dr. Chu. I don't think so at this juncture, but we are 
looking at this very carefully.
    I think there are two issues out there. One is the take 
rate on the Health Professional Scholarship Program. Some of 
that may be due to--or let me put it this way. We may need to 
rethink who does the recruiting, to put more of it in the 
medical community's hands.
    Second, there is the issue is our compensation package 
adequate for the specialties where we have shortages. We have 
not in every one of those cases fully exhausted the authority, 
but we are reluctant to come forward to ask for additional 
authority until we have done that. We are reviewing the data 
because these professionals are crucial to our continued 
success, and we may wish to revise our view.
    Dr. Snyder. You mean authority for compensation? So you 
haven't hit your legislative ceiling on that?
    Dr. Chu. It may be wise to ask for something. We are asking 
for higher ceilings for reserve medical compensation bonuses. 
That is in our legislative package. Whether we need it for the 
active force or not is an open question.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. McHugh. Thank you.
    Gentlemen, again, as I tried to indicate in my opening 
comments, thank you all for being here, for your service. We 
look forward--for those who you sticking by your current 
assignments, thank you. We look forward to working with you. To 
those in new ones, we look forward to working with you in those 
capacities.
    These are challenging times; and we are very, very 
fortunate as a subcommittee, a committee and as a Nation to 
have capable, dedicated and very, very effective folks like you 
serving all of us. Our words of appreciation----
    You got through it, Admiral, first time. Thank you so much.
    We are clearing out the second panel to come up.
    [Pause.]
    Mr. McHugh. Gentlemen, thank you for being here; and let me 
for the record have the honor of introducing our second 
panelists:
    The first, Admiral Donald Pilling, United States Navy, 
Retired, chairman of the Defense Advisory Committee on Military 
Compensation. Admiral, thank you so much for being here, sir.
    Mr. Robert E. Robertson, Director of Education, Workforce 
and Income Security Issues with the United States Government 
Accountability Office. Sir, welcome.
    Colonel Steve Strobridge, United States Air Force, Retired, 
Director, Government Relations of the Military Officers 
Association of America. Thank you for being here.
    As you heard from the first panel, we have received your 
testimony as submitted. All of them will be introduced into the 
record in their entirety without objection. Without hearing any 
objection, will be so ordered. So you can approach your 
comments in any way you see fit.
    Why don't we start with the order of introduction. Admiral.

 STATEMENT OF ADM. DONALD L. PILLING (RET.), CHAIRMAN, DEFENSE 
     ADVISORY COMMITTEE ON MILITARY COMPENSATION, U.S. NAVY

    Admiral Pilling. Good morning, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to talk about the 
results of the Defense Advisory Committee on Military 
Compensation. Although our final report is not due until later 
this month, we have already communicated our basic 
recommendations to DOD; and I would like to take a few minutes 
to discuss what we are proposing.
    The committee was established over a year ago by Secretary 
Rumsfeld and has seven members. Two are retired four-star 
officers, two are economists who were instrumental in the Gates 
Commission report in the 1970's which led to the all-volunteer 
force, two members are outside compensation human resource 
experts, and one is a former Deputy Secretary of Defense.
    Our task was to develop an overall architecture for 
military compensation in this century which would recognize the 
realities and changes in the environment since the original 
compensation scheme was put in place in the middle of the last 
century. Along with that formidable task, we were asked to 
develop a set of principles which could be used to form a 
framework for evaluating future changes to the military 
compensation structure.
    The two biggest changes we are recommending are to the 
retirement system and to move toward a system which reflects 
pay for performance.
    The first recommendation on the retirement system was based 
on our review of how we got to the current retirement system. 
We reviewed the testimony of three deputy chiefs of staff to 
the Congress in the post-World War II hearings on the 
retirement system. They asserted that the average military 
career would be about 30 years in length. The system in place 
provided for an immediate annuity at that point because life 
expectancy in the last century at that point was in the 60's. 
It was also believed that retiring military members had no 
easily transferable skills and obtaining private sector 
employment would be very difficult.
    The services asked that the restrictions imposed by the 
Congress for a 20-year retirement be repealed because there 
might be a few who wanted a shorter military career. As they 
thought about how this retirement system has been used, we find 
most people who stay for a full career retire at 20 years. We 
also believe the current system is inequitable and inflexible 
because you must stay for 20 years or you will get nothing. 
Further, our investigation showed that less than 15 percent of 
enlisted members serve long enough to become retirement-
eligible.
    Finally, advances in health care have moved life expectancy 
into the 80's for the current generation; and data shows most 
members who retire in 20 years enjoy a second career. We 
believe a retirement system for future enlistees should vest at 
10 years and extend out to 40 years for a hundred percent 
retirement but that the retirement annuity not begin until age 
60. The savings generated from the reduced funding of the 
retirement pay accrual could be used to put more cash in the 
military member's pocket while he or she is on active duty. 
This would include a five percent contribution to a member's 
Thrift Savings Plan (TSP) and special bonus pay to be paid at 
appropriate points beyond ten years of service to encourage 
longer service for those with critical skills and value to 
their parent service.
    The second major change would be pay for performance. We 
recommend the pay table based on time and grade, as opposed to 
the current time in service pay table. So that military members 
whose performance is recognized by early selection would retain 
that pay advantage over their peers on a permanent basis.
    The second proposal in this area would eliminate the 
distinction between basic allowances for those with dependents 
and for those without dependents. The current system results in 
enlisted members with dependents realizing 245 percent more 
housing-related compensation than their peers who perform the 
same job but get paid without dependents rate.
    Our other recommendations address incentive pays, increase 
in the Tricare fees for the under 65 military retirees, and 
removing the hard edges when reserve and guard members are 
called to active duty.
    Thank you for this opportunity today, and I look forward to 
your questions.
    Mr. McHugh. Thank you very much, Admiral.
    [The prepared statement of Admiral Pilling can be found in 
the Appendix on page 214.]
    Mr. McHugh. Mr. Robertson.

    STATEMENT OF ROBERT E. ROBERTSON, DIRECTOR, EDUCATION, 
    WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Robertson. I am really happy to be here today.
    By the way, this is the first time I have been before this 
subcommittee. I am happy to be here today----
    Mr. McHugh. If I may interrupt you, I have been advised if 
you could pull that a little closer.
    Mr. Robertson. I have to tell you, sir, that I refrained 
from doing the initial tap, tap, tapping on the microphone to 
see if it was on.
    At any rate, I am happy to be here this morning; and I am 
going to be summarizing a report that we recently issued that 
basically examined the military's disability evaluation system. 
That report basically covered three areas. It compared the 
policy and guidance governing disability determinations among 
each of the services as well as between reserve and active duty 
personnel. It also examined the oversight and quality control 
procedures that are in place to assure consistent and timely 
disability decisions; and, finally, the report uses an original 
statistical analysis, which I am very proud of, by the way, to 
compare disability rating and benefit decisions for active duty 
and reserve members of the Army.
    Now here is what we found. Instead of waving these glasses, 
I better put them on, because I don't know what will come out 
of my mouth otherwise.
    First, while there are basic characteristics common to each 
of the services' disability systems, DOD has given the services 
latitude in implementing certain aspects of these systems. As a 
result, you are going to see some differences in several areas, 
and that includes the nature and composition of individual 
services' decision-making bodies.
    There are also differences in the laws and policies that 
affect reservists going through the disability determination 
process. For example, the part-time status of reservists means 
it can take them longer to accrue the necessary service years 
to qualify for certain types of benefits.
    Now, moving on to oversight of the disability systems, we 
found that neither the DOD nor the services are adequately 
monitoring the consistency of decision-making, and that is a 
key component of any credible disability determination process. 
Timely disability decisions are also essential to a well-
functioning disability determination. We found, however, that 
DOD is not collecting available information to assure 
compliance with its own timeliness goals, nor are the services 
assuring that the timeliness data they are collecting is 
reliable and accurate. In short, we believe there is a need for 
improved oversight with regard to consistency and timeliness of 
disability decisions.
    Finally, concerning the third area of our report, we found 
that, after controlling for differences in the characteristics 
of reservists and active duty military personnel, reservists 
and active duty personnel with similar characteristics receive 
similar ratings; and that is a good thing.
    We also have found, again after controlling for differences 
in the reservists and active duty military, that reservists 
appeared less likely to receive disability benefits than their 
active duty counterparts.
    Now, we were unable to rule out preexisting conditions or 
years of service as possible explanations for this difference. 
Based on these and other findings in our study, we made several 
recommendations to the Secretary of Defense, all aimed at 
basically shoring up the decision-making process in terms of 
producing consistent and timely disability decisions.
    Mr. Chairman, that concludes my prepared remarks; and I 
will be happy to answer questions at the appropriate time.
    Mr. McHugh. Thank you very much, sir, and welcome again.
    [The prepared statement of Mr. Robertson can be found in 
the Appendix on page 231.]
    Mr. McHugh. Colonel.

   STATEMENT OF COL. STEVEN P. STROBRIDGE (RET.), DIRECTOR, 
GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA, 
                         U.S. AIR FORCE

    Colonel Strobridge. Thank you. Thank you, Mr. Chairman and 
distinguished members of the subcommittee, for this opportunity 
to present the views of the Military Coalition. We certainly 
appreciate all the committee has done, the subcommittee has 
done in recent years to protect the interests of the entire 
military community during these very trying times, but, as you 
heard many years before or many times before, we think there is 
a lot that still has to be done.
    For the active duty forces, we continue to be very 
concerned that all the services are stretched thin. We take 
DOD's assertions that retention is good with a little bit of a 
grain of salt. We see families, looking at their third Iraq 
deployment in five years, increasingly asking themselves 
whether that is too much sacrifice. We believe there is a 
reason why the Army is promoting nearly all the captains and 
majors, and that is because a lot them have left and others are 
thinking of doing so.
    We certainly support your efforts to increase the Army and 
Marine Corps end strengths and are concerned about the wisdom 
of large manpower cuts by the Air Force and Navy. We think 
those cuts are budget driven and not mission driven.
    The Coalition is grateful for your emphasis on improving 
family support programs, particularly for guard and reserve 
families and those affected by BRAC and rebasing plans. Large-
scale movements of troops and families from Germany is going to 
start soon. Thousands are going to need access to health care 
and child care and schools from the day they arrive at their 
new locations.
    We also hope you will continue recent progress toward 
restoring military pay comparability, including those added 
targeted raises for enlisted members and warrant officers. We 
do urge correction of the housing allowance standards that 
depress allowances for most mid-grade and senior enlisted 
members by assuming they occupy inappropriately small quarters. 
We hope the committee will authorize shipping a second vehicle 
for our dual-income families.
    In the education area, you hit the Montgomery GI Bill 
earlier. We certainly believe it is time to upgrade and 
strengthen the GI Bill for the 21st century, and one of the 
biggest goals is to do a better job by our guard and reserve 
forces. We certainly agree with the comments that Congressman 
Snyder made.
    We also continue to believe that there should be some 
adjustment in the reserve retirement age, at least for those 
who have experienced extended mobilizations.
    We are grateful for the very significant increases that the 
subcommittee worked on death gratuity and Servicemen's Group 
Life Insurance (SGLI), but we are sensitive that those only 
affect relatively recent survivors. There are significant 
inequities that remain in the Survivor Benefit Plan (SBP) areas 
for thousands of widows whose sponsors died from combat- or 
service-connected causes, most of whom did not get the 
increases. The deduction of VA benefits leaves many survivors 
with annuities of about a thousand dollars a month. We strongly 
believe if the member's death was caused by the service, the VA 
compensation should be added to SBP, not subtracted from it.
    We urge you to do all you can to implement 30-year paid-up 
SBP coverage this year, instead of the October 2008, effective 
date in current law. Those World War II and Korean era retirees 
have paid 25 percent more SBP premiums than the post-1978 
counterparts will ever have to. We think making them wait 2 
more years and raising that what we call the greatest 
generation tax from 25 to 34 percent is an undue penalty. We 
think that those folks who literally saved the world have 
already paid enough.
    Similarly, we need a fairer solution for severely disabled 
retirees who now have to fund part or all of their VA 
disability compensation from their earned military retired pay. 
Last year, the subcommittee moved up the full payment date to 
October 2009, for those who are deemed unemployable by the VA. 
We hope you will be able to eliminate that offset entirely this 
year.
    Another equally deserving group that I don't think get 
enough attention are those who are disabled in combat so 
severely that they were forced into medical retirement before 
completing 20 years of service. The current rules for combat-
related compensation require 20 years, as if those members had 
the option of serving that long. We fully compensate 10 percent 
combat-disabled members who serve 20 years and 1 day, but a 
member who is shot through the spine and becomes a quadriplegic 
with 19 years and 11 months ends up losing most or all of his 
retired paid to that disability offset. The only reason they 
didn't serve 20 years was the combat wounds wouldn't let them, 
and we think equity demands we vest them proportionate to their 
service, 2.5 percent times year of service, like we do for the 
people who are combat-disabled and medically retired with more 
than 20.
    That concludes my testimony. We certainly appreciate the 
opportunity to provide it.
    Mr. McHugh. Thank you very much, Colonel.
    [The prepared statement of Colonel Strobridge can be found 
in the Appendix on page 247.]
    Mr. McHugh. Admiral, let's go to you.
    I gave Secretary Chu an opportunity to try to comment and 
give us a little--no pun intended here--to chew upon. He 
actually didn't take that. I had met with the Secretary 
privately on these initiatives before, and he was similarly 
noncommittal.
    Let's talk in general terms about your body of work. 
Obviously, some of the things that you provide, retirement 
based on time and grade and the lifting, if you will, of single 
soldier, sailors, airmen, Marines to the same Basic Allowance 
for Housing (BAH) as married folks and so on, those all have a 
cost factor. Were you able to analyze each cost implication or 
did you not get to that level?
    Admiral Pilling. We did look at the offset that would be 
generated if you made the retirement system--the annuity start 
at age 60. For example, an enlisted member retiring at age 40 
would go without that annuity for that period of time, which 
would free up a considerable amount of cash from the retired 
pay accrual because you are no longer paying for a full 
lifetime annuity. We took those resources and looked at various 
schemes to put those resources into the individual's pocket 
through TSP contributions, bonus pay for serving beyond 10 
years.
    We did not look at how we would offset the increase in 
costs for changing the distinction between with and without 
dependents. That is a big bill. We recognize that. We think it 
is around $500 million a year.
    There would be offsets, obviously, if you did that. Because 
now those members who don't have dependents would essentially 
see a pay raise, which would help in recruiting and retention, 
but also take away this bonus if you get married or gained 
dependents. So we think the percentage of the force that has 
dependents might change, and you would see some savings in the 
infrastructure, but it might take a long time to liquidate that 
offset.
    Mr. McHugh. $500 million.
    Admiral Pilling. Yes, sir.
    Mr. McHugh. How about the cultural aspect? Obviously, if 
you tell someone you are--well, let me focus on the military 
cultural aspect. These programs are embedded in the 
traditions--the military retirement has always been sold as 
particularly attractive because of the early age at which you 
can draw it, et cetera. I don't know if there is any way to 
judge that. Is there any way you can talk to folks or discover 
the receptivity, a military cultural----
    Admiral Pilling. Basically, I briefed the leadership of 
DOD, not only the uniformed leadership, and the leadership--the 
uniformed leadership was somewhat sensitive about doing away 
with the--distinguishing with and without dependents; and you 
can probably guess which services were the most nervous about 
that. So that was a cultural issue.
    But to change the retirement scheme didn't strike me from 
their questions and comment that that was a cultural issue. 
Their concern was more, this is for a future force. We 
grandfather the current force.
    Mr. McHugh. And that is your proposal as well?
    Admiral Pilling. Yes, sir.
    Mr. McHugh. This is not changing in midstream a flow of 
benefits and processes that folks signed up under?
    Admiral Pilling. Yes, sir.
    Mr. McHugh. Colonel, how about your constituents? Those are 
who we work for on this side of the dais. Any thoughts about 
some of these things that you have heard the Admiral talking 
about?
    Colonel Strobridge. Yes, sir. We have reported on the 
findings of the Commission and gotten a considerable amount of 
mail on them, as you can imagine.
    I have got a little bit of different perspective. In 1986, 
when Congress passed the reduction plan, I was the DOD 
retention officer at that point. We expressed concern that 
again was only for the future force; and we expressed at that 
point what--that was going on, basically saying you are going 
to reduce what people get at the 20 year points. And nobody 
really worried too much about it until the Joint Chiefs came 
over in the late 1990's and said it wasn't working, and we had 
to repeal it.
    I do have to have some--you know, any idea I think deserves 
a look. You don't want to just say we can never change 
anything. But I also think that good ideas have to stand up to 
some pretty heavy scrutiny. I think if we had this kind of 
situation today with today's force, the soldier that I was 
talking about earlier, where you have someone looking at their 
third tour in Iraq in five years, then they have a situation 
where basically they can be vested and take some of their 
retirement and leave or, if they stay, they have to wait until 
age 60 to get their full compensation, I don't think we would 
be looking at very good retention numbers.
    Mr. McHugh. Admiral.
    Admiral Pilling. Sir, first of all, I don't think we should 
get hung up on the comparisons to the reduction. Reduction 
clearly had two classes of citizens, the ones that were 
grandfathered and then the new entrants who were really going 
to have a reduction in the compensation. This takes the money 
that you save from deferring the annuity to age 60 and puts it 
up front as an offsetting compensation in terms of cash or in 
terms of contributions to TSP. So, depending on your 
perspective, you could think this is much better for you rather 
than worse. That wasn't true in reduction. You were clearly a 
second-class citizen.
    Mr. McHugh. Well, it is not my intention to engage you in 
debate. We will have a lot of time talking about that. But, 
obviously, you both have important perspectives in this.
    In light of your positions, Mr. Robertson, let me just ask 
you a shotgun-type question here.
    Your report identified a lot of areas of focus and 
concerns--I guess that word fits--perhaps not the best word--
but things that we have got to be looking at, and obviously 
that was the kind of product we wanted when we invented this in 
our last authorization bill, and we appreciate what you have 
done in that regard in helping us.
    But if you had to recommend to the services right now those 
steps they should most immediately take, could you tick off a 
few for us?
    Mr. Robertson. Absolutely. Basically, as I alluded to 
earlier, our recommendations are aimed at helping the military 
disability evaluation systems produce timely and consistent 
decisions.
    Now, before I get into the two or three recommendations I 
would like to talk about, I should really put some perspective 
on this and note that these types of concerns, timeliness and 
consistency, are not unique to the DOD disability system. VA 
and Social Security Administration (SSA) have been struggling 
with the same problems for a long time. So they are difficult 
problems to address.
    But the essence in biggies in terms of recommendations that 
we have for the Department of Defense is first that the 
service, at the service level, make sure that the services are 
collecting accurate data on timeliness and consistency. And, 
again, we ran into some problems looking at the Army, the Army 
timeliness data in terms of reliability of that data.
    So, first, make sure you are collecting accurate data; 
second, have the services monitor and report routinely on those 
data to DOD; and, finally, have DOD basically look across the 
services from the standpoint of are the decisions consistent, 
are they timely, that type of thing.
    So that, in a nutshell, are the big recommendations.
    We did have a couple other recommendations concerning 
training in terms of also DOD taking a look--a hard look at the 
timeliness performance goals that it has in place now.
    Mr. McHugh. What is the main obstacle to timeliness? We 
generally just say, oh, bureaucracy, and I guess that is 
probably a good response here. But what does that mean?
    Mr. Robertson. I think one of the problems in timeliness is 
that we really don't have good numbers on the timeliness issue. 
Again, as I said a minute ago, when we were looking at the 
Army's data, you know, we had some concerns about the 
reliability of their electronic data; and there were problems, 
basically, in transferring the hard copy data from the 
electronic data.
    So there are probably problems basically with the 
reliability of that, number one, meaning you have to have data 
to be able to figure out what the problem is. And then, number 
two, once you get that reliable data, if it does show indeed 
that there are some timeliness problems, then you look at the 
why; and then you go about to address the underlying factors.
    But getting the bottom line to your question is, in order 
to understand, A, if there is a problem and, B, what the source 
of the problem is, there needs to be more data analysis done 
than it is now.
    Mr. McHugh. So you wouldn't be willing to say it is just a 
backlog issue? That is what we hear on Social Security 
Disability, we are ten years behind because there are so many 
backlogs.
    Well, I have been all-consuming in the time, and I 
apologize to my colleagues. I would be happy to yield to Dr. 
Snyder.
    Dr. Snyder. Mr. Udall has been darting between committee 
meetings. Can we go to him first?
    Mr. McHugh. Absolutely, if the ranking member wants to 
defer.
    Mr. Udall. Thank you, Mr. Chairman. I thank my ranking 
member as well; and I have to tell the chairman I appreciate 
his New York sense of humor, although I am not sure I 
completely understand it.
    Mr. McHugh. I don't always either.
    Mr. Udall. I want to thank the panel for your important 
testimony today.
    If I could start with Colonel Strobridge, I make the 
initial general comment I think for all of the work that we do 
to educate the general public and recruiting, that is still a 
powerful form of word-of-mouth recruiting, and that goes on, 
and all of us are helping make sure that word of mouth 
continues to have that effect that it is having for a couple 
hundred years, frankly.
    Also, I want to thank you particularly, Colonel Strobridge. 
You don't pull punches in your report here. A couple of 
sections caught my interest. One is your discussion of end 
strength, and a number of us have been proposing an increase in 
the Army's end strength. I know your Air Force background, but 
I wonder if you would talk briefly about your sense of end 
strength and even increasing it and the effect that that would 
have on potentially the guard and reserves as well.
    Colonel Strobridge. Yes, sir. I am here in my capacity as 
cochairman of the Mililtary Coalition, which comprises 36 
associations; and we are unanimous in saying that we think we 
agree completely with both Armed Services Committees that there 
really needs to be significant increase in end strength.
    As I said, we are worried about the cuts in the Air Force 
and the Navy. Most of us have been there before. Once you start 
drawing down, you stop even monitoring retention, and it is 
very easy to get surprised.
    The big concern is it has come out pretty clearly in the 
Discharge Monitoring Report (DMR) that these aren't mission-
based kinds of changes. They are efforts to cut people. And we 
are cutting people because that is where the money is so we can 
fund other programs. To us, when you are talking about national 
security, that is taking an awful big risk and particularly 
when the people who are paying the price are those folks, like 
I say, who are going to Iraq time and time and time again. We 
like to say they are running on adrenaline and patriotism, but 
that only lasts so long.
    Mr. Udall. Admiral, I know you are in a little different 
position, a different set of responsibilities, but do you have 
a point of view on this question?
    Admiral Pilling. Sir, I have been retired five years. I 
don't know the thinking of the service chiefs, whether they 
want to reduce their end strength or increase it.
    Mr. Udall. Colonel, if I can come back to you, if you were 
to list your three greatest priorities in this calendar year as 
well as the overlapping fiscal year--I know in your internal 
statement you mentioned some of them, but I would like to give 
you another opportunity to.
    Colonel Strobridge. I think the end strength is probably 
the largest single one. If you look at today's situation and 
you are concerned about national security, I think you have to 
be worried about the recruiting and the retention as well.
    We think that there is a pretty significant inequity for 
the survivors that I mentioned, the SBP-Death in Captivity 
(DIC) offset in particular; and we are particularly concerned 
about the inequity for those folks, particularly people who are 
coming back wounded who are not going to be able to live their 
lives as expected. Right now, they are being basically denied 
their earned military retirement because of this 20-year rule; 
and we think that is particularly unfair particularly for the 
person--and I have talked to several people who literally were 
mandatorily retired with 19 years and 11 months, and it is 
pretty hard talking with those folks.
    Mr. Udall. I think the point you made, too, is that--what I 
was alluding to earlier--you have that word-of-mouth dynamic 
where you want the retired corps with enlisted personnel 
officers to be speaking highly and positively about their 
service and how they were treated when they were in the service 
and when they retired as well. I think that is the key point 
you make here.
    Colonel Strobridge. You asked for top three. I do think 
when you look at guard and reserve forces, those folks are 
going above and beyond. They are really paying more--maybe even 
a--more penalty than the active duty folks.
    When the active duty folks come back, they are getting 
lauded for their combat experience. They are in a culture that 
admires and rewards that. Folks who are coming back to guard 
and reserve are going back to a civilian employer who may 
resent them being gone. As Congressman Snyder says, once they 
get out, they are not allowed to use their--when they are 
recruited, get your college. And what they are finding is that 
they are mobilized so they can't use their college. Once they 
get out, they can't use it. I do think that we have some things 
to make up to those folks.
    Mr. Udall. Admiral, can I go to the front end, the intake 
valve, if you will? You talked quite a bit about this in your 
report. You took a look at the recruiting challenges as well as 
how we might adjust compensation. I apologize for being a 
little bit late on the panel, but would you be willing to again 
summarize the point that you made particularly to the 
compensation side?
    Admiral Pilling. When the committee started its work a year 
ago, the Army and, to some extent, the Marine Corps were 
experiencing recruiting problems; and we were trying to 
determine is this a compensation issue or not. As we looked 
into it, it was the number of recruiters and the recruiting 
budget, the economy and the war going on is what we sort of 
concluded; and those facets the Army and Marine Corps can 
control. They have taken the right steps.
    So as you heard--you didn't hear this morning, but the Army 
has had ten successful months of recruiting as a result of 
putting the recruits back in the field and recruiting 
resources. And we said it didn't appear to be a compensation 
issue for us.
    If we changed the retirement program, that would change the 
rate of cash compensation that members would get, and that 
might be in the enhanced recruiting tool because you get more 
pay while you are in the military.
    Mr. Udall. Colonel Strobridge--and then I will conclude, 
Mr. Chairman. The points made here about flexible spending 
accounts. That is interesting that we have made that available 
to active duty personnel. It doesn't make sense, and I think 
your word was unconscionable.
    Colonel Strobridge. It is, sir. We can't believe, very 
frankly, that every other federal employee and every corporate 
employee in America has access to flexible spending accounts 
where they can have their child care and adult care and out-of-
pocket health care experiences taken out of their pay before 
taxes. That authority exists for the Department of Defense. The 
Department of Defense, for whatever reason, has chosen not to 
apply it for their military people like they have for federal 
civilians. To us, you know, we have got single members, there 
are two-member parents where one is deployed, we have got 
increases in their needs for child care. Gosh, it seems like we 
ought to be able to let them use the same benefit that the law 
already allows.
    Mr. Udall. My experience in my own life, there are savings 
that can be significant to soldiers and airmen and Marines, 
sailors who are trying to get by with a thousand, $1,500 pretax 
and more choice in the process. Thank you for being there on 
that.
    Mr. Robertson, my question, I have a man in my district, a 
man who lost part of his leg in the theater, 21 years old. What 
are his prospects? Are we going to do right by him over the 
rest of his life span?
    Mr. Robertson. I think that the system in place would 
basically allow him to be compensated for in the same way using 
the same rating schedule as the VA is using right now. So, you 
know, short answer to that question is I would say, yes, he 
will go through the system; and he should be compensated in the 
way the system is set up, which is okay.
    Mr. Udall. Thank you.
    Again, thanks for all the panel for their good work. Thank 
you.
    Mr. McHugh. Ranking member.
    Dr. Snyder. Thank you, Mr. Chairman.
    I wanted to dwell just a little bit on this GI Bill. I 
appreciate you all being here. You all heard discussion this 
morning.
    I am going to read, Colonel Strobridge, from your opening 
statement. Your section is divided up into active component, 
and you talk about the need to do something with the benefit 
and active component. But I want to drill down in your 
statement about the Montgomery GI Bill for the reserve 
components.
    Total Force Montgomery GI Bill. The Nation's active duty, 
national guard and reserve forces are operationally integrated 
under the total force policy. But educational benefits under 
the MGIB neither reflect that policy nor match benefits for 
service commitment. The Mililtary Coalition is grateful to 
Congress for significant increases in active duty MGIB benefits 
enacted prior to 9/11, but little has been done since then.
    For the first 15 years of the Montgomery GI Bill, reserve 
Montgomery GI Bill benefits, Chapter 1606, Title 10 USC, 
maintained almost 50 percent parity with active duty MGIB 
benefits. Slippage from the 50 percent level began following 
the September 11, 2001, attacks. Today the guard and reserve 
MGIB pays less than 29 percent of the active duty program. 
Congress attempted to address the gap by authorizing a new MGIB 
program, Chapter 1607, Title 10 USC, for guard and reserve 
service members mobilized for more than 90 days in a 
contingency operation. More than a year after the law was 
changed, the new 1607 program still has not been implemented. 
Further, there is no readjustment benefit for MGIB benefits 
earned by mobilized reservists. If the benefit is not used 
during the period of their reserve service, it is lost. This is 
a non-benefit at best, and false advertising at worst, when 
members are effectively precluded from using their MGIB 
entitlement because of repeated mobilizations.
    A total force MGIB program is needed to integrate all 
components of the MGIB under Title 38, benchmark benefits to 
the average cost of a public college education, and provide 
equity of benefits for service rendered. A total force approach 
to the MGIB will better support active and reserve recruitment 
programs, readjustment to civilian life and administration of 
the program.
    That is the end of the quote from your written statement.
    I wish I had written that. I would have read that as my 
opening statement. But I think it really summarizes the 
problem. I hadn't thought about this before.
    I was talking earlier, Mr. Chairman, about the unfairness 
of a guy or gal who who is mobilized 18 months or 20 months, 
but then they come to the end of their 6-year enlistment and 
that is all they intended, they want to get with their life, 
and they get no benefit. But you bring up the point that when 
they are mobilized you are not going to be able to go to 
college in Baghdad. And they are only eligible while they are a 
member of the reserve component. It really is doubly unfair. 
They have earned it, literally bled for it, and then--but can't 
take advantage of it because they can only take advantage of it 
when they are in the service. So I think your statement really 
brings home this issue.
    Were you here this morning when Dr. Chu testified?
    Colonel Strobridge. Yes, sir.
    Dr. Snyder. We have issues, and Mr. McHugh and I have 
talked about them, the Chapter 38. You recommend merging these 
under Chapter 38, but there is a lot of issues connected with 
that, and we really would like your help.
    I met with some folks from the Military Officers 
Association of America (MOAA) in the last couple of days. We 
talked about this. But I think we need to get language on paper 
that says, here what is we think we can do, and then start 
floating it around so we can see, well, what does the Pentagon 
think of this? How would CBO score this? How would the Pentagon 
maintain--not be stuck for paying for benefits over which this 
committee may not see. I think we need to start getting words 
on paper and not just have a concept.
    So any help on that we would appreciate. I think there are 
some folks working on that. Because things are complex not just 
to be complex, they are complex because the reality is it is 
complex, and it is expensive, and we need to do a good job by 
it.
    So if you have specific language on how to do that merger 
or ideas on how to do it, I would sure like to see it in 
written form so we can start floating that around with the 
committee staff and Mr. McHugh and others so we can start 
looking at those issues.
    Colonel Strobridge. We will be more than happy to provide 
that.
    Dr. Snyder. I think it is really an important issue for the 
long term of our country plus the short term of retention and 
recruitment.
    Thank you all for being here.
    Mr. McHugh. I thank ranking member.
    Colonel, you mentioned specifically SBP. As I know you are 
aware, in both concurrent receipt and SBP, I am proud of the 
fact that at least this recent Congress and recent actions by 
this committee has started to address that. We hadn't done 
anything on concurrent receipt since the Civil War, and we have 
chipped away a little bit.
    SBP, we had direct spending that we have accommodated and 
whittled that down, narrowed it down about $2.2 billion. To 
make it all go away, which I think all of us would 
philosophically like to see happen, would cost about another 
$8.4 billion.
    So many of those things is, as Dr. Snyder just said with 
respect to the Montgomery GI bill and Title 38, et cetera, our 
costs associated. If your organization could direct us to spend 
$8 billion, is that where you would spend it first? I am trying 
to understand your constituents' priorities.
    Colonel Strobridge. Yes, sir. That is a very good question. 
I had to think when Congressman Udall asked me earlier. I think 
there would probably be some of our coalition members who might 
not be happy with the top three or four that I named, very 
frankly, because when we talk about it within the coalition, we 
really don't talk about a top three, it is more look a top six 
or seven; and we have conscientiously avoided trying to say 
this is our number one, two and three just for that reason. You 
start to lose support when you do that.
    If we had to do that, we could do it. But, for example, one 
of the things that I didn't mention, and I am regretting not 
mentioning it, is the guard and reserve health care issue that 
came up last year. We made some progress last year. This is a 
huge issue for the guard and reserve community.
    But we will deal with those things regularly. We--as you 
know, we come here with a long agenda every year, and I don't 
think we are naive enough to think that the subcommittee is 
going to be able to improve everything and we all go home 
happy. We recognize the constraints that you are under; and I 
hope that you believe, and the staff believes, that we work 
hard to try to prioritize with you, to try to find ways, 
productive ways to get things done.
    We have in the past, as necessary, on concurrent receipt or 
SBC, developed phasing options to try to, you know, reduce 
those cost opportunities, cost needs; and and we will do that 
again if necessary.
    Mr. McHugh. Well, I appreciate that. And, truth be told, 
that is why we have had narrowing under concurrent receipts and 
narrowing under SBC. It comes down to, well, we don't have $8.4 
billion that we can spend in one place. We have lesser amounts. 
So where can we provide the greatest benefit and do what is 
right in the most areas and most areas of need; and, clearly, 
MOAA has been an important part of that.
    We have got a series of votes here, and I am not going to--
with my colleagues' agreement, I am not going to ask that you 
stay through those. So we do have a few minutes left if Mr. 
Udall or Mr. Snyder have any follow-up questions for the 
panelists.
    Dr. Snyder. Mr. Chairman, if you would yield your question 
about limited dollars and the things we can do.
    One of the issues on this GI Bill, and you may have some 
comments about this, as part of this discussion Mr. Chatfield 
and I were talking about, some of the folks that are experts 
that represent some of the Base Supply Offices (BSOs) recognize 
this issue of money but are trying to keep this thing as much 
as possible, this first step, revenue neutral, the issue of how 
could you move it into Title 38.
    Maybe there is a way to do that without being really 
expensive, but you can start evaluating the program year after 
year so you can maintain your equity. And with one exception, 
that would be it would cost money. It really does concern me 
about these guys losing the benefit after they have been 
mobilized. Maybe there may be a way to look at that aspect 
without it being a big-dollar item, although it is complex, and 
Mr. Chatfield is working on that. We are trying to get 
language. We can't evaluate things without language.
    Mr. McHugh. The gentleman makes an excellent point.
    Reclaiming my time, just to make clear, I was asking about 
the SBP based on Colonel Strobridge's earlier comments not to 
Mr. Udall but to me, specifically had mentioned SBP. And if we 
can do--anything we can do that is good and doesn't cost money, 
we ought to do it real quick. The money parts perhaps come a 
little bit slower. But, Mr. Udall, any----
    Mr. Udall. Just piggy-backing on the chairman's comments, 
so that the flexible savings account concept is something we 
can do and I think we can do it without any outlay of funds.
    Colonel, I don't know quite how to say this, but, Mr. 
Chairman, when he talks about having six priorities instead of 
three, sounds to me like what we face every day as elected 
officials, that there is that pressure on us because we have so 
many constituents. So the chairman is right when he talks about 
your constituency group. You look at the first page of the 
Military Service Obligation (MSO) here, and that is quite an 
impressive list of Americans.
    Colonel Strobridge. When you have a spouse--when you have, 
collectively talking, at one time a spouse whose military 
member is poised for multiple deployments and when you have a 
gold-star wife affected by the SBP and you have one of these 
disabled folks, it is pretty hard to say, you know, I think you 
get a bigger priority, you wait a year.
    Now we did that on SBP. We made a conscious decision, 
because there is multiple SBP issues, to say the age 62 issue 
has to come first. That was the biggest inequity applied to the 
most people. And we are very grateful that you did that. But we 
can't ignore the reality that there are still these others 
issues that we told these folks please wait because we will 
address your problem when we can but this is more important.
    Mr. McHugh. Because really, if I may interrupt, we are just 
kind of free associating here. I have heard the comment, well, 
we don't really have to look at SBP because we have increased 
the life insurance up to 400 and did the death gratuity to 
100,000. Well, that is not adequate compensation for the loss 
of any loved one, but it sure doesn't apply to those folks you 
just talked about who were never a benefit of that.
    So the problems continue, and that is why we so much 
appreciate the good people like you helping us across the broad 
range.
    And, Admiral, I suspect after you are released formally 
your agreement will have, I hope, the opportunity to interact 
on that again.
    Mr. Robertson, we are going to take that report you so 
effectively gave us and try to do some things with it that make 
the system better, sir.
    Mr. Robertson. Yes, 30 seconds, sir; and I think this will 
give the subcommittee members a good feeling to leave this 
place with.
    In answering Representative Udall's question, I failed to 
mention one thing, and I think it gives you a flavor of where 
everybody is coming in this disability determination process, 
where the military is coming from in this disability 
termination process, and again--30 seconds--I attended a 
physical evaluation board (PEB), and it was a heart-wrenching 
situation involving a serious man, obviously. But I was really, 
really struck by how sensitive and how well the PEB members 
solicited information from this individual to make sure they 
got all the facts out, tried to make him feel comfortable. It 
was very impressive, and I think that should make you feel good 
about how they are being treated the system. I can't say much 
about timeliness or consistency, but I can tell you where they 
are coming from.
    Mr. McHugh. Well, we appreciate that, and we are blessed to 
have great people working in government and the military, and 
every American should stop and thank their lucky stars for that 
occasion.
    Also, Colonel, it should go--well, it shouldn't. It does 
not go without saying but perhaps should, but MOAA has been 
such an important part of helping this Congress, this 
subcommittee and committee deal with those issues that are so 
important to those who have served to whom we owe so much and 
those who continue to serve to this day. So thank you for that 
as well.
    Gentlemen, I now have what I didn't have in the beginning, 
a gavel, with that and our appreciation, hearing is adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 6, 2006

=======================================================================

      


      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 6, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0472.001
    
    [GRAPHIC] [TIFF OMITTED] T0472.002
    
    [GRAPHIC] [TIFF OMITTED] T0472.003
    
    [GRAPHIC] [TIFF OMITTED] T0472.004
    
    [GRAPHIC] [TIFF OMITTED] T0472.005
    
    [GRAPHIC] [TIFF OMITTED] T0472.006
    
    [GRAPHIC] [TIFF OMITTED] T0472.007
    
    [GRAPHIC] [TIFF OMITTED] T0472.008
    
    [GRAPHIC] [TIFF OMITTED] T0472.009
    
    [GRAPHIC] [TIFF OMITTED] T0472.010
    
    [GRAPHIC] [TIFF OMITTED] T0472.011
    
    [GRAPHIC] [TIFF OMITTED] T0472.012
    
    [GRAPHIC] [TIFF OMITTED] T0472.013
    
    [GRAPHIC] [TIFF OMITTED] T0472.014
    
    [GRAPHIC] [TIFF OMITTED] T0472.015
    
    [GRAPHIC] [TIFF OMITTED] T0472.016
    
    [GRAPHIC] [TIFF OMITTED] T0472.017
    
    [GRAPHIC] [TIFF OMITTED] T0472.018
    
    [GRAPHIC] [TIFF OMITTED] T0472.019
    
    [GRAPHIC] [TIFF OMITTED] T0472.020
    
    [GRAPHIC] [TIFF OMITTED] T0472.021
    
    [GRAPHIC] [TIFF OMITTED] T0472.022
    
    [GRAPHIC] [TIFF OMITTED] T0472.023
    
    [GRAPHIC] [TIFF OMITTED] T0472.024
    
    [GRAPHIC] [TIFF OMITTED] T0472.025
    
    [GRAPHIC] [TIFF OMITTED] T0472.026
    
    [GRAPHIC] [TIFF OMITTED] T0472.027
    
    [GRAPHIC] [TIFF OMITTED] T0472.028
    
    [GRAPHIC] [TIFF OMITTED] T0472.029
    
    [GRAPHIC] [TIFF OMITTED] T0472.030
    
    [GRAPHIC] [TIFF OMITTED] T0472.031
    
    [GRAPHIC] [TIFF OMITTED] T0472.032
    
    [GRAPHIC] [TIFF OMITTED] T0472.033
    
    [GRAPHIC] [TIFF OMITTED] T0472.034
    
    [GRAPHIC] [TIFF OMITTED] T0472.035
    
    [GRAPHIC] [TIFF OMITTED] T0472.036
    
    [GRAPHIC] [TIFF OMITTED] T0472.037
    
    [GRAPHIC] [TIFF OMITTED] T0472.038
    
    [GRAPHIC] [TIFF OMITTED] T0472.039
    
    [GRAPHIC] [TIFF OMITTED] T0472.040
    
    [GRAPHIC] [TIFF OMITTED] T0472.041
    
    [GRAPHIC] [TIFF OMITTED] T0472.042
    
    [GRAPHIC] [TIFF OMITTED] T0472.043
    
    [GRAPHIC] [TIFF OMITTED] T0472.044
    
    [GRAPHIC] [TIFF OMITTED] T0472.045
    
    [GRAPHIC] [TIFF OMITTED] T0472.046
    
    [GRAPHIC] [TIFF OMITTED] T0472.047
    
    [GRAPHIC] [TIFF OMITTED] T0472.048
    
    [GRAPHIC] [TIFF OMITTED] T0472.049
    
    [GRAPHIC] [TIFF OMITTED] T0472.050
    
    [GRAPHIC] [TIFF OMITTED] T0472.051
    
    [GRAPHIC] [TIFF OMITTED] T0472.052
    
    [GRAPHIC] [TIFF OMITTED] T0472.053
    
    [GRAPHIC] [TIFF OMITTED] T0472.054
    
    [GRAPHIC] [TIFF OMITTED] T0472.055
    
    [GRAPHIC] [TIFF OMITTED] T0472.056
    
    [GRAPHIC] [TIFF OMITTED] T0472.057
    
    [GRAPHIC] [TIFF OMITTED] T0472.058
    
    [GRAPHIC] [TIFF OMITTED] T0472.059
    
    [GRAPHIC] [TIFF OMITTED] T0472.060
    
    [GRAPHIC] [TIFF OMITTED] T0472.061
    
    [GRAPHIC] [TIFF OMITTED] T0472.062
    
    [GRAPHIC] [TIFF OMITTED] T0472.063
    
    [GRAPHIC] [TIFF OMITTED] T0472.064
    
    [GRAPHIC] [TIFF OMITTED] T0472.065
    
    [GRAPHIC] [TIFF OMITTED] T0472.066
    
    [GRAPHIC] [TIFF OMITTED] T0472.067
    
    [GRAPHIC] [TIFF OMITTED] T0472.068
    
    [GRAPHIC] [TIFF OMITTED] T0472.069
    
    [GRAPHIC] [TIFF OMITTED] T0472.070
    
    [GRAPHIC] [TIFF OMITTED] T0472.071
    
    [GRAPHIC] [TIFF OMITTED] T0472.072
    
    [GRAPHIC] [TIFF OMITTED] T0472.073
    
    [GRAPHIC] [TIFF OMITTED] T0472.074
    
    [GRAPHIC] [TIFF OMITTED] T0472.075
    
    [GRAPHIC] [TIFF OMITTED] T0472.076
    
    [GRAPHIC] [TIFF OMITTED] T0472.077
    
    [GRAPHIC] [TIFF OMITTED] T0472.078
    
    [GRAPHIC] [TIFF OMITTED] T0472.079
    
    [GRAPHIC] [TIFF OMITTED] T0472.080
    
    [GRAPHIC] [TIFF OMITTED] T0472.081
    
    [GRAPHIC] [TIFF OMITTED] T0472.082
    
    [GRAPHIC] [TIFF OMITTED] T0472.083
    
    [GRAPHIC] [TIFF OMITTED] T0472.084
    
    [GRAPHIC] [TIFF OMITTED] T0472.085
    
    [GRAPHIC] [TIFF OMITTED] T0472.086
    
    [GRAPHIC] [TIFF OMITTED] T0472.087
    
    [GRAPHIC] [TIFF OMITTED] T0472.088
    
    [GRAPHIC] [TIFF OMITTED] T0472.089
    
    [GRAPHIC] [TIFF OMITTED] T0472.090
    
    [GRAPHIC] [TIFF OMITTED] T0472.091
    
    [GRAPHIC] [TIFF OMITTED] T0472.092
    
    [GRAPHIC] [TIFF OMITTED] T0472.093
    
    [GRAPHIC] [TIFF OMITTED] T0472.094
    
    [GRAPHIC] [TIFF OMITTED] T0472.095
    
    [GRAPHIC] [TIFF OMITTED] T0472.096
    
    [GRAPHIC] [TIFF OMITTED] T0472.097
    
    [GRAPHIC] [TIFF OMITTED] T0472.098
    
    [GRAPHIC] [TIFF OMITTED] T0472.099
    
    [GRAPHIC] [TIFF OMITTED] T0472.100
    
    [GRAPHIC] [TIFF OMITTED] T0472.101
    
    [GRAPHIC] [TIFF OMITTED] T0472.102
    
    [GRAPHIC] [TIFF OMITTED] T0472.103
    
    [GRAPHIC] [TIFF OMITTED] T0472.104
    
    [GRAPHIC] [TIFF OMITTED] T0472.105
    
    [GRAPHIC] [TIFF OMITTED] T0472.106
    
    [GRAPHIC] [TIFF OMITTED] T0472.107
    
    [GRAPHIC] [TIFF OMITTED] T0472.108
    
    [GRAPHIC] [TIFF OMITTED] T0472.109
    
    [GRAPHIC] [TIFF OMITTED] T0472.110
    
    [GRAPHIC] [TIFF OMITTED] T0472.111
    
    [GRAPHIC] [TIFF OMITTED] T0472.112
    
    [GRAPHIC] [TIFF OMITTED] T0472.113
    
    [GRAPHIC] [TIFF OMITTED] T0472.114
    
    [GRAPHIC] [TIFF OMITTED] T0472.115
    
    [GRAPHIC] [TIFF OMITTED] T0472.116
    
    [GRAPHIC] [TIFF OMITTED] T0472.117
    
    [GRAPHIC] [TIFF OMITTED] T0472.118
    
    [GRAPHIC] [TIFF OMITTED] T0472.119
    
    [GRAPHIC] [TIFF OMITTED] T0472.120
    
    [GRAPHIC] [TIFF OMITTED] T0472.121
    
    [GRAPHIC] [TIFF OMITTED] T0472.122
    
    [GRAPHIC] [TIFF OMITTED] T0472.123
    
    [GRAPHIC] [TIFF OMITTED] T0472.124
    
    [GRAPHIC] [TIFF OMITTED] T0472.125
    
    [GRAPHIC] [TIFF OMITTED] T0472.126
    
    [GRAPHIC] [TIFF OMITTED] T0472.127
    
    [GRAPHIC] [TIFF OMITTED] T0472.128
    
    [GRAPHIC] [TIFF OMITTED] T0472.129
    
    [GRAPHIC] [TIFF OMITTED] T0472.130
    
    [GRAPHIC] [TIFF OMITTED] T0472.131
    
    [GRAPHIC] [TIFF OMITTED] T0472.132
    
    [GRAPHIC] [TIFF OMITTED] T0472.133
    
    [GRAPHIC] [TIFF OMITTED] T0472.134
    
    [GRAPHIC] [TIFF OMITTED] T0472.135
    
    [GRAPHIC] [TIFF OMITTED] T0472.136
    
    [GRAPHIC] [TIFF OMITTED] T0472.137
    
    [GRAPHIC] [TIFF OMITTED] T0472.138
    
    [GRAPHIC] [TIFF OMITTED] T0472.139
    
    [GRAPHIC] [TIFF OMITTED] T0472.140
    
    [GRAPHIC] [TIFF OMITTED] T0472.141
    
    [GRAPHIC] [TIFF OMITTED] T0472.142
    
    [GRAPHIC] [TIFF OMITTED] T0472.143
    
    [GRAPHIC] [TIFF OMITTED] T0472.144
    
    [GRAPHIC] [TIFF OMITTED] T0472.145
    
    [GRAPHIC] [TIFF OMITTED] T0472.146
    
    [GRAPHIC] [TIFF OMITTED] T0472.147
    
    [GRAPHIC] [TIFF OMITTED] T0472.148
    
    [GRAPHIC] [TIFF OMITTED] T0472.149
    
    [GRAPHIC] [TIFF OMITTED] T0472.150
    
    [GRAPHIC] [TIFF OMITTED] T0472.151
    
    [GRAPHIC] [TIFF OMITTED] T0472.152
    
    [GRAPHIC] [TIFF OMITTED] T0472.153
    
    [GRAPHIC] [TIFF OMITTED] T0472.154
    
    [GRAPHIC] [TIFF OMITTED] T0472.155
    
    [GRAPHIC] [TIFF OMITTED] T0472.156
    
    [GRAPHIC] [TIFF OMITTED] T0472.157
    
    [GRAPHIC] [TIFF OMITTED] T0472.158
    
    [GRAPHIC] [TIFF OMITTED] T0472.159
    
    [GRAPHIC] [TIFF OMITTED] T0472.160
    
    [GRAPHIC] [TIFF OMITTED] T0472.161
    
    [GRAPHIC] [TIFF OMITTED] T0472.162
    
    [GRAPHIC] [TIFF OMITTED] T0472.163
    
    [GRAPHIC] [TIFF OMITTED] T0472.164
    
    [GRAPHIC] [TIFF OMITTED] T0472.165
    
    [GRAPHIC] [TIFF OMITTED] T0472.166
    
    [GRAPHIC] [TIFF OMITTED] T0472.167
    
    [GRAPHIC] [TIFF OMITTED] T0472.168
    
    [GRAPHIC] [TIFF OMITTED] T0472.169
    
    [GRAPHIC] [TIFF OMITTED] T0472.170
    
    [GRAPHIC] [TIFF OMITTED] T0472.171
    
    [GRAPHIC] [TIFF OMITTED] T0472.172
    
    [GRAPHIC] [TIFF OMITTED] T0472.173
    
    [GRAPHIC] [TIFF OMITTED] T0472.174
    
    [GRAPHIC] [TIFF OMITTED] T0472.175
    
    [GRAPHIC] [TIFF OMITTED] T0472.176
    
    [GRAPHIC] [TIFF OMITTED] T0472.177
    
    [GRAPHIC] [TIFF OMITTED] T0472.178
    
    [GRAPHIC] [TIFF OMITTED] T0472.179
    
    [GRAPHIC] [TIFF OMITTED] T0472.180
    
    [GRAPHIC] [TIFF OMITTED] T0472.181
    
    [GRAPHIC] [TIFF OMITTED] T0472.182
    
    [GRAPHIC] [TIFF OMITTED] T0472.183
    
    [GRAPHIC] [TIFF OMITTED] T0472.184
    
    [GRAPHIC] [TIFF OMITTED] T0472.185
    
    [GRAPHIC] [TIFF OMITTED] T0472.186
    
    [GRAPHIC] [TIFF OMITTED] T0472.187
    
    [GRAPHIC] [TIFF OMITTED] T0472.188
    
    [GRAPHIC] [TIFF OMITTED] T0472.189
    
    [GRAPHIC] [TIFF OMITTED] T0472.190
    
    [GRAPHIC] [TIFF OMITTED] T0472.191
    
    [GRAPHIC] [TIFF OMITTED] T0472.192
    
    [GRAPHIC] [TIFF OMITTED] T0472.193
    
    [GRAPHIC] [TIFF OMITTED] T0472.194
    
    [GRAPHIC] [TIFF OMITTED] T0472.195
    
    [GRAPHIC] [TIFF OMITTED] T0472.196
    
    [GRAPHIC] [TIFF OMITTED] T0472.197
    
    [GRAPHIC] [TIFF OMITTED] T0472.198
    
    [GRAPHIC] [TIFF OMITTED] T0472.199
    
    [GRAPHIC] [TIFF OMITTED] T0472.200
    
    [GRAPHIC] [TIFF OMITTED] T0472.201
    
    [GRAPHIC] [TIFF OMITTED] T0472.202
    
    [GRAPHIC] [TIFF OMITTED] T0472.203
    
    [GRAPHIC] [TIFF OMITTED] T0472.204
    
    [GRAPHIC] [TIFF OMITTED] T0472.205
    
    [GRAPHIC] [TIFF OMITTED] T0472.206
    
    [GRAPHIC] [TIFF OMITTED] T0472.207
    
    [GRAPHIC] [TIFF OMITTED] T0472.208
    
    [GRAPHIC] [TIFF OMITTED] T0472.209
    
    [GRAPHIC] [TIFF OMITTED] T0472.210
    
    [GRAPHIC] [TIFF OMITTED] T0472.211
    
    [GRAPHIC] [TIFF OMITTED] T0472.212
    
    [GRAPHIC] [TIFF OMITTED] T0472.213
    
    [GRAPHIC] [TIFF OMITTED] T0472.214
    
    [GRAPHIC] [TIFF OMITTED] T0472.215
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 6, 2006

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T0472.216
    
    [GRAPHIC] [TIFF OMITTED] T0472.217
    
    [GRAPHIC] [TIFF OMITTED] T0472.218
    
    [GRAPHIC] [TIFF OMITTED] T0472.219
    
    [GRAPHIC] [TIFF OMITTED] T0472.220
    
    [GRAPHIC] [TIFF OMITTED] T0472.221
    
    [GRAPHIC] [TIFF OMITTED] T0472.222
    
    [GRAPHIC] [TIFF OMITTED] T0472.223
    
    [GRAPHIC] [TIFF OMITTED] T0472.224
    
    [GRAPHIC] [TIFF OMITTED] T0472.225
    
    [GRAPHIC] [TIFF OMITTED] T0472.226
    
    [GRAPHIC] [TIFF OMITTED] T0472.227
    
    [GRAPHIC] [TIFF OMITTED] T0472.228
    
    [GRAPHIC] [TIFF OMITTED] T0472.229
    
    [GRAPHIC] [TIFF OMITTED] T0472.230
    
    [GRAPHIC] [TIFF OMITTED] T0472.231
    
    [GRAPHIC] [TIFF OMITTED] T0472.232
    
    [GRAPHIC] [TIFF OMITTED] T0472.233
    
    [GRAPHIC] [TIFF OMITTED] T0472.234
    
    [GRAPHIC] [TIFF OMITTED] T0472.235
    
    [GRAPHIC] [TIFF OMITTED] T0472.236
    
    [GRAPHIC] [TIFF OMITTED] T0472.237
    
    [GRAPHIC] [TIFF OMITTED] T0472.238
    
    [GRAPHIC] [TIFF OMITTED] T0472.239
    
    [GRAPHIC] [TIFF OMITTED] T0472.240
    
    [GRAPHIC] [TIFF OMITTED] T0472.241
    
    [GRAPHIC] [TIFF OMITTED] T0472.242
    
    [GRAPHIC] [TIFF OMITTED] T0472.243
    
    [GRAPHIC] [TIFF OMITTED] T0472.244
    
    [GRAPHIC] [TIFF OMITTED] T0472.245
    
    [GRAPHIC] [TIFF OMITTED] T0472.246
    
    [GRAPHIC] [TIFF OMITTED] T0472.247
    
    [GRAPHIC] [TIFF OMITTED] T0472.248
    
    [GRAPHIC] [TIFF OMITTED] T0472.249
    
    [GRAPHIC] [TIFF OMITTED] T0472.250
    
    [GRAPHIC] [TIFF OMITTED] T0472.251
    
    [GRAPHIC] [TIFF OMITTED] T0472.252
    
    [GRAPHIC] [TIFF OMITTED] T0472.253
    
    [GRAPHIC] [TIFF OMITTED] T0472.254
    
    [GRAPHIC] [TIFF OMITTED] T0472.255
    
    [GRAPHIC] [TIFF OMITTED] T0472.256
    
    [GRAPHIC] [TIFF OMITTED] T0472.257
    
    [GRAPHIC] [TIFF OMITTED] T0472.258
    
    [GRAPHIC] [TIFF OMITTED] T0472.259
    
    [GRAPHIC] [TIFF OMITTED] T0472.260
    
    [GRAPHIC] [TIFF OMITTED] T0472.260
    
    [GRAPHIC] [TIFF OMITTED] T0472.261
    
    [GRAPHIC] [TIFF OMITTED] T0472.262
    
    [GRAPHIC] [TIFF OMITTED] T0472.263
    
    [GRAPHIC] [TIFF OMITTED] T0472.264
    
    [GRAPHIC] [TIFF OMITTED] T0472.265
    
    [GRAPHIC] [TIFF OMITTED] T0472.266
    
    [GRAPHIC] [TIFF OMITTED] T0472.267
    
    [GRAPHIC] [TIFF OMITTED] T0472.268
    
    [GRAPHIC] [TIFF OMITTED] T0472.269
    
    [GRAPHIC] [TIFF OMITTED] T0472.270
    
    [GRAPHIC] [TIFF OMITTED] T0472.271
    
    [GRAPHIC] [TIFF OMITTED] T0472.272
    
    [GRAPHIC] [TIFF OMITTED] T0472.273
    
    [GRAPHIC] [TIFF OMITTED] T0472.274
    
    [GRAPHIC] [TIFF OMITTED] T0472.275
    
    [GRAPHIC] [TIFF OMITTED] T0472.276
    
    [GRAPHIC] [TIFF OMITTED] T0472.277
    
    [GRAPHIC] [TIFF OMITTED] T0472.278
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 6, 2006

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DRAKE

    Mrs. Drake. General Hagenbeck, would you be supportive of a policy 
change regarding the outsourcing of certain administrative functions 
within the United States Army Recruiting Command (USAREC) to private 
industry?
    General Hagenbeck. A number of Army recruiting administrative 
functions have already been outsourced, including recruiting company 
office coverage, telephone answering, travel orders preparation, and 
checks on applicants shipping to the training centers. Another 
outsourced task is live chat room and email responses for the 
www.goarmy.com recruiting website. The Center for Accessions Research 
(CAR), USA Accessions Command, is currently studying the feasibility of 
outsourcing certain administrative functions at the recruiting company 
level with the intent of allowing the recruiters to concentrate on 
their primary mission-recruit. This study currently involves evaluating 
four civilian companies' abilities to conduct security background 
checks in a timely and accurate manner. Results of this study will help 
provide information on the feasibility of outsourcing certain 
administrative functions.
    Mrs. Drake. Last year, this subcommittee addressed what it 
perceived as a critical gap in our military capability by approving 
significant retention bonuses for experienced soldiers within the 
special operations community. Considering the Quadrennial Defense 
Review's call for a 15% increase in Special Operations Forces (SOF)--a 
call which I echoed in the House Armed Services Committee's 
Congressional Defense Review process--I am particularly concerned that 
our recruitment and retention efforts are currently not at the level 
they need to be in order to meet this important and yet challenging 
goal. Neither an increased focus on retention nor on recruitment alone 
will allow us to maximize our SOF capability. We need to employ a 
multi-faceted strategy employing all the tools at our disposal. While I 
strongly believe that SOF capabilities are critical to the Global War 
on Terror, I am also keenly aware of the community's culture of the 
``silent professional'' and how this low-profile image has impacted 
recruitment.
    Under Secretary Chu, can you elaborate on whether the retention 
bonuses Congress recently authorized have been effective in curtailing 
the historically high attrition rates within the SOF community?
    Dr. Chu. SOF retention is very good, and the retention programs for 
our SOF warriors are working. In Fiscal Year 2005, we approved the SOF 
Retention Incentive Initiative, impacting most SOF operators. This 
incentive authorized a Critical Skills Retention Bonus (CSRB) for 
senior operators for a maximum of six years of service up to 25 years 
of service, an Assignment Incentive Pay (AIP) for our most senior 
operators with more than 25 years of service, and a Warrant Officer 
Accession Bonus. Further, the retention initiative raised Special Duty 
Assignment Pay (SDAP) for most operators.

    <bullet>  Since implementation of the CSRB program for SOF 
personnel, 905 out of 1,960 (46% take rate) eligible Service members 
have accepted the bonus. The CSRB is not authorized for non-SOF 
personnel.
    <bullet>  Enlisted members and warrant officers who have more than 
25 years of service will receive AIP in the amount of $750 per month. 
Currently, 212 members have enrolled into the program, agreeing to stay 
on active duty for at least an additional 12 months.
    <bullet>  Since the Warrant Officer Accession Bonus was announced, 
69 Service members have entered into the SOF Warrant Officer program.
    <bullet>  The SDAP was authorized at a standard allotment of $375 
for all SOF members.
    <bullet>  In addition to the new incentives, the Military Services 
will continue to offer SOF personnel Selective Reenlistment Bonuses as 
needed.

    Mrs. Drake. Last year, this subcommittee addressed what it 
perceived as a critical gap in our military capability by approving 
significant retention bonuses for experienced soldiers within the 
Special Operations community. Considering the Quadrennial Defense 
Review's call for a 15% increase in Special Operations Forces (SOF)--a 
call which I echoed in the House Armed Services Committee's 
Congressional Defense Review process--I am particularly concerned that 
our recruitment and retention efforts are currently not at the level 
they need to be in order to meet this important and yet challenging 
goal. Neither an increased focus on retention nor on recruitment alone 
will allow us to maximize our SOF capability. We need to employ a 
multi-faceted strategy employing all the tools at our disposal. While I 
strongly believe that SOF capabilities are critical to the Global War 
on Terror (GWOT), I am also keenly aware of the community's culture of 
the ``silent professional'' and how this low-profile image has impacted 
recruitment.
    In light of the recruitment challenge that I alluded to above, what 
more can the Department of Defense do to actively promote SOF and 
increase recruitment into the SOF community?
    Dr. Chu. You are correct in stating that it will take a multi-
faceted approach, utilizing all available tools, to achieve this 
critical recruiting mission. Since the onset of GWOT, the Services have 
worked aggressively to identify the means by which to improve the 
manning of SOF. Successful recruitment of potential SOF candidates 
requires individuals with extremely high physical fitness standards and 
extraordinary skills. Finding candidates that meet the rigorous 
requirements for SOF, coupled with the decrease in physical readiness 
among our youth in society today, while simultaneously trying to expand 
the market, has proved challenging.
    We continue to look for ways to penetrate the market, to include 
focused marketing in order to attract specifically interested and 
motivated candidates; improved means of selecting candidates for the 
SOF communities in order to expand the number of potential candidates 
who will qualify and successfully complete training; and, reviews at 
Service level to ensure training and in service attrition are minimized 
without jeopardizing the quality of the SOF. We appreciate the support 
that Congress has provided us in our efforts to attract these highly 
qualified individuals. We believe that the Department must continue to 
try to expand the market, improve enlistment incentives, reduce 
attrition in the training process, and improve our SOF reenlistment 
rates.
    Mrs. Drake. While on the topic of attrition, specifically with 
regards to the ``silent professional,'' I recently spoke to a retired 
Petty Officer 2nd Class, a former operator in a Naval Special Boat 
Unit, who spoke to me about his ordeal receiving medical care when he 
was on active duty. According to this E-5, who was injured on numerous 
occasions throughout his 15 years of service, there seemed to be a 
significant disconnect between the doctor assigned to his group and the 
doctor--who had greater authority--assigned to him at Portsmouth Naval. 
Because the understanding and knowledge of the special warfare 
community was not present at Portsmouth, this E-5 claims that he did 
not receive the level of care over the years that he would have 
expected.
    How can we ensure that the needs--particularly medical--of our SOF 
community are being met considering the differences in culture that 
exist within our military between unconventional and conventional 
forces? How can we ensure that these differences do not adversely 
affect retention rates?
    Dr. Chu. One of the most important features of the Military Health 
System (MHS) is that physicians in the direct care system practice one 
standard of care; i.e., it is our expectation that every beneficiary 
will receive care that is consistent with the nationally accepted 
standard of care. As a general rule, the physicians assigned to the 
large military treatment facilities (MTFs) such as Naval Medical Center 
(NMC) Portsmouth are either fully trained, board eligible, or certified 
specialists who have completed at least three years of graduate medical 
education after medical school, or physicians in training under the 
supervision of the fully trained specialists. Physicians assigned to a 
SOF unit are usually general medical officers (GMOs) who have completed 
one year of graduate medical education. It is not necessarily true that 
the specialist at the MTF has greater authority than the GMO, but it is 
nearly always true that the attending physician at the MTF has greater 
expertise and experience than a GMO. Therefore, the direction of the 
attending physician is what guides the patient's care.
    It is standard practice in military medicine (and in the civilian 
sector, as well) that once a patient is referred by a GMO, or other 
primary care provider, to a specialist, the specialist's treatment plan 
would be used as the roadmap for the goal of returning a Service member 
to duty without medical limitations. While there may be rare cases in 
which the SOF GMO's treatment plan is more appropriate to the 
operational setting than that of the specialist, cooperation and 
communication between specialists will provide the highest quality of 
care in the vast majority of cases. Because the MHS offers one standard 
of care, a SOF operator with a particular illness or injury receives 
the same high quality care that is offered to every other beneficiary 
with the same illness or injury.
    In geographical areas where SOF units are located near MTFs, MTFs 
often take special measures to ensure that SOF operators receive timely 
and efficient care. For example, in recognition of previous delays in 
care related to the secrecy surrounding SOF activities, and to expedite 
care for SOF Service members, NMC Portsmouth implemented the following 
initiatives during the past year:

    <bullet>  The Director for Surgical Services (DSS) is now the sole 
``conduit'' for all SOF patients. The SOF unit physician contacts the 
DSS directly. If admission is required, the DSS arranges a direct 
admission to the hospital, without any stop in the Emergency 
Department. If outpatient services are required, the DSS arranges the 
appointments.
    <bullet>  The DSS has a high-level security clearance, so the SOF 
physician can describe where the injury or illness occurred and provide 
details about the related circumstances that may be important in 
diagnosis or treatment of the patient, etc.
    <bullet>  The DSS facilitates SOF patient care as rapidly as 
possible, so that there is no waiting for specialty consultations, 
operating room time, physical therapy, etc.
    <bullet>  NMC Portsmouth invites SOF unit physicians to become part 
of its own medical staff so they can work with their colleagues 
(orthopedists, infectious disease physicians, etc.) to improve 
communication and trust.
    <bullet>  NMC Portsmouth physicians spend time in the branch 
medical clinics where the SOF physicians work between deployments so 
they gain familiarity with the medical personnel and assets available 
at the SOF unit level.

    In these ways, the MHS attempts to bridge the gap in knowledge and 
experience between the operational medical personnel and the garrison 
medical personnel. Open communication and partnership between the 
conventional and unconventional medical personnel, as appropriate, can 
facilitate improved medical care for sick or injured SOF operators.
    Mrs. Drake. It is my understanding that the Department of Defense's 
(DOD's) collocation rule affects only those support units that 
constantly collocate with direct ground combat maneuver battalions. 
However, I am concerned that female soldiers may have been placed in 
Forward Support Companies (FSCs), which collocate with all-male 
infantry and armor maneuver battalions. Can you provide me a complete 
list--per Department regulations promulgated on January 13, 1994--of 
positions in each Service that the DOD considers as open to Service 
women as well as a list of those considered as closed to women?
    Dr. Chu. The Department believes that the assignment of women 
complies with policy and that the Army is vigilant in ensuring that 
assignments of women to all units (including FSCs) are accomplished 
within existing policy and guidelines. Section 541 of Public Law 109-
163, however, requires that we submit a report on current and future 
application of the policy, and directs that the review examine Army 
personnel policies and practices to ensure conformity with the 
Department's 1994 memorandum. The DOD and Army are in the process of 
conducting this review, with a specific focus on adherence to the 
policy in relation to the ongoing transformation of the Army to modular 
units. The FSC is one of these modular units. The RAND Corporation's 
National Defense Research Institute is assisting the Department in this 
examination. We anticipate that the final report, along with the 
Department's subsequent analysis, will be forwarded to Congress later 
this year. I expect that the concerns expressed by your questions and 
requests for specific data will be addressed in a more analytical and 
helpful manner through this formal report.
    A comprehensive list of positions would be voluminous and 
unmanageable. Position data and titles vary across the Services and 
within organizations within the Services. The Department, however, 
monitors those fields and specialties open to women where at least 80% 
of the personnel assigned are men. These specialties, listed by 
Service, follow the ``History'' below. Information about specialties 
that exclude women or are less than 80% male is provided annually to 
Congress, in accordance with Section 562 of the Bob Stump National 
Defense Authorization Act for Fiscal Year 2003. A representation of 
fields and specialties closed to women is provided.

History

April 1993: Congress repealed the law that prohibited women from being 
assigned to combat aircraft (1992-93 National Defense Authorization 
Act).

December 1993: Congress repealed the naval combatant exclusion law 
(Public Law 103-160).

January 1994: The Secretary of Defense opened combat aviation.

February 1994: The Secretary of Defense allowed women to be permanently 
assigned to surface combatant vessels (repeal of title 10, code 6015).

October 1994: The DOD Risk Rule was rescinded by the Secretary of 
Defense. Women became eligible for all positions for which they were 
qualified, except for those assignments to units below the brigade 
level whose primary mission was to engage in direct combat on the 
ground. (Women were eligible to become bomber pilots, fighter and 
rotary wing pilots, and sailors on combat ships. However, the direct 
ground combat definition restricted female soldiers).

May 1999: Navy opens Mine Countermeasure and Coastal Mine Hunter ships 
to women officers (berthing available at no modification cost, for 
officers only).

February 2003: Army opened some Air Defense Artillery Enlisted 
positions to women.

April 2005: Navy opens Patrol Coastal Ships to women officers (berthing 
available at no modification cost for officers only). Submarines remain 
closed to women due to high modification costs for berthing.

Army

Officer Fields

Acquisition
Air Defense Artillery
Aviation
Chaplain
Civil Affairs
Dental Corps
Engineers
Field Artillery (select specialties)
Force Development
Foreign Area Officer
Logistics
Military Intelligence
Ordnance
Signal Corps

Warrant Officer Fields

Air Defense Artillery
Ammunition
Aviation
Corps of Engineers
Field Artillery (select specialties)
Medical Service Corps
Military Intelligence
Military Police
Ordnance
Signal Corps
Transportation Corps
Veterinary Corps

Enlisted Fields

Air Defense Artillery
Ammunition
Aviation
Communications Systems and Information
Electronic Maintenance and Calibrations
Engineer
Field Artillery (select specialties)
Mechanical Maintenance
Military Intel Systems Maintenance/Integration
Military Intelligence
Military Police
Psychological Operations
Recruitment and Reenlistment

Navy

Officer Fields

Aviation (General Aviation, Pilot and Naval Flight Officer)
Chaplain
Civil Engineer Corps
Cryptology
Engineering Duty Officer (EDO)/Aerospace EDO (AEDO)
Intelligence
Special Operations (Mammal Handler)
Supply
Surface Warfare Officer

Limited Duty Officer Fields

Administration
Aviation
Band Master
Civil Engineer Corps
LDO Communications
Cryptology
Intelligence
Meteorology
Photography
Security
Submarine tender
Supply
Surface Warfare Officer

Warrant Officer Fields

Aviation
Cryptology
Food Service
Intelligence
Security
Submarine tender
Supply
Surface Warfare Officer

Enlisted Fields

Aviation
Combat Systems
Construction
Engineering
Operations
Non-Rated (Seaman, Airman)

Air Force

Officer Fields

Acquisition Manager
Aerospace Medicine Physician
Air Battle Management
Air Force Operations Staff Officer
Air Traffic Control
Aircraft Maintenance and Munitions
Bioenvironmental Engineer
Bomber Navigator
Bomber Pilot
Chaplain
Civil Engineer
Commander
Communications and Information
Developmental Engineer
Executive Officer above Wing Level
Fighter Navigator
Fighter Pilot
Foreign Area Officer
General Officer
Generalist Pilot
Helicopter Pilot
International Politico-Military Affairs
Mobility Navigator
Mobility Pilot
Navigator Trainee
Operations Commander
Pilot Trainee
Planning and Programming
Recon/Surveillance/Electronic War Navigator
Recon/Surveillance/Electronic Warfare Pilot
Security Forces
Space and Missile Maintenance
Space and Missile Operations
Special Operations Navigator
Special Operations Pilot
Student Officer Authorization
Support Commander
Surgeon
Trainer Pilot
Weather

Enlisted Fields

Security Forces
Aerospace Maintenance
Tactical Aircraft Maintenance
Communications-Computer Sys Operations
Aircraft Armament Sys
Munitions Sys
Aerospace Propulsion
Bomber Avionics Sys
Air Transportation
Aerospace Ground Equip
Fuels
Aircraft Electrical and Environmental Sys
Fire Protection
Aircraft Structural Maintenance
Communications-Computer Sys Control
Electronic Computer and Switching Sys
Recruiter
Ground Radio Communications
Avionics Test Station and Components
Satellite and Wideband Communications Equip
Vehicle Operations
Aircraft Loadmaster
Aircraft Hydraulic Sys

Marines

Officer Fields

Air Command and Control Officer
Air Intelligence Officer
Aircraft Maintenance Officer
Aviation Supply Officer
Billet Designator-Any Pilot/Naval Flight Officer
Billet Designator-Fixed Wing Pilot
Billet Designator-Unrestricted Ground Officer
Billet Designator-Unrestricted Officer
CH-53 A/D Qualified
Colonel, Ground
Command and Control Systems Officer
Engineer Officer
F/A-18D Weapons System Officer
Financial Management Officer
Ground Supply Officer
Judge Advocate
KC-130 Aircraft Commander
KC-130 Co-Pilot (T2P/T3P)
Logistics Officer
Marine Air/Ground Task Force (MAGTF) Intelligence Officer
Military Police Officer
Pilot HMH CH-53E
Pilot HMH/M/L/A AH-1
Pilot HMH/M/L/A CH-46
Pilot HMH/M/L/A UH-1
Pilot VMA-AV-8B
Pilot VMFA F/A-18
Qualified EA-6B Electronic Warfare Officer
Signal Intelligence/Ground Electronic Warfare Officer

Warrant Officer Fields

Engineer Equipment Officer
Nuclear, Biological & Chemical Defense Officer
Aircraft Maintenance Engineering Off
Aviation Ordnance Officer
Motor Transport Maintenance Officer
Avionics Officer
Data/Communications Maintenance Officer
Embarkation Officer
Personnel Officer

Enlisted Fields

Engineer Equipment Operator
Combat Engineer
Engineer Equipment Mechanic
Small Arms Repairer/Technician
Recruiter
Organizational Automotive Mechanic
Sergeant Major/First Sergeant
Bulk Fuel Specialist
Motor Vehicle Operator
Aircraft Ordnance Technician
Guard
Billet Designator-Enlisted
Logistics Vehicle System Operator
Military Police
Drill Instructor
Field Radio Operator
Embarkation/Logistics and Combat Service Support Specialist
Intelligence Specialist
Field Wireman
Food Service Specialist
Ammunition Technician
Supply Administration & Operations Clerk
Personnel Clerk
Administrative Clerk
Warehouse Clerk
Aviation Supply Clerk
Personnel/Administrative Chief
Tactical Network Specialist
Data Network Specialist

Examples of Specialties Closed to Women

Officer

Infantry
Armor
Special Forces/Special Tactics Officer
Special Operations Aviation
Underwater Special Operations
Military Free Fall Special Operations
Ranger
Submariner
Combat Rescue Officer

Enlisted

Infantryman
Field Artillery
Special Forces/Special Operations
Armor
Combat Engineer
Artillery Mechanic
Bradley Fighting Vehicle Mechanic
M1 Abrams Tank System Mechanic
Submariner
Para Rescue
Combat Controller

    Mrs. Drake. How many female soldiers are currently trained or 
placed, whether ``assigned,'' ``attached,'' or ``op-conned,'' in 
support units that collocate with land combat maneuver battalions in 
Army brigade combat teams within the 1st Cavalry Division, the 3rd and 
4th Infantry Divisions, the 10th Mountain Division, the 101st Airborne 
Division, and other units that deliberately engage the enemy in direct 
ground combat? I am requesting numbers for Fiscal Year (FY) 2002 
through FY 2006 in the active-duty Army, National Guard, and Reserve 
components.
    Dr. Chu. The Department believes that the assignment of women 
complies with policy and that the Army is vigilant in ensuring that 
assignments of women to all units (including Forward Support Companies 
(FSCs)) are accomplished within existing policy and guidelines. Section 
541 of Public Law 109-163, however, requires that we submit a report on 
current and future application of the policy, and directs that the 
review examine Army personnel policies and practices to ensure 
conformity with the Department's 1994 memorandum. The DOD and Army are 
in the process of conducting this review, with a specific focus on 
adherence to the policy in relation to the ongoing transformation of 
the Army to modular units. The FSC is one of these modular units. The 
RAND Corporation's National Defense Research Institute is assisting the 
Department in this examination. We anticipate that the final report, 
along with the Department's subsequent analysis, will be forwarded to 
Congress later this year. I expect that the concerns expressed by your 
questions and requests for specific data will be addressed in a more 
analytical and helpful manner through this formal report.
    Mrs. Drake. How many female soldiers are being trained to serve, 
whether ``assigned,'' ``attached,'' or ``op-conned,'' in support units 
that collocate with land combat maneuver battalions in any Army or 
Marine units that deliberately engage the enemy in direct ground 
combat? I am requesting numbers for Fiscal Year (FY) 2007 through FY 
2010 in the active-duty Army, National Guard, and Reserve components.
    Dr. Chu. The Department believes that the assignment of women 
complies with policy and that the Army is vigilant in ensuring that 
assignments of women to all units (including Forward Support Companies 
(FSCs)) are accomplished within existing policy and guidelines. Section 
541 of Public Law 109-163, however, requires that we submit a report on 
current and future application of the policy, and directs that the 
review examine Army personnel policies and practices to ensure 
conformity with the Department's 1994 memorandum. The DOD and Army are 
in the process of conducting this review, with a specific focus on 
adherence to the policy in relation to the ongoing transformation of 
the Army to modular units. The FSC is one of these modular units. The 
RAND Corporation's National Defense Research Institute is assisting the 
Department in this examination. We anticipate that the final report, 
along with the Department's subsequent analysis, will be forwarded to 
Congress later this year. I expect that the concerns expressed by your 
questions and requests for specific data will be addressed in a more 
analytical and helpful manner through this formal report.
    Mrs. Drake. A May 17, 2005 letter from Army Staff Director Lt. Gen. 
James L. Campbell claimed that, if legislation cosponsored by House 
Armed Services Committee Chairman Duncan Hunter and Military Personnel 
Subcommittee Chairman John McHugh passed, a total of 21,925 spaces in 
Army Brigade and Stryker Combat Teams currently open for assignment to 
female soldiers would be closed. What data regarding the placement of 
female soldiers in Forward Support Companies (FSCs)--present or 
future--supports this claim?
    Dr. Chu. The Department believes that the assignment of women 
complies with policy and that the Army is vigilant in ensuring that 
assignments of women to all units (including FSCs) are accomplished 
within existing policy and guidelines. Section 541 of Public Law 109-
163, however, requires that we submit a report on current and future 
application of the policy, and directs that the review examine Army 
personnel policies and practices to ensure conformity with the 
Department's 1994 memorandum. The DOD and Army are in the process of 
conducting this review, with a specific focus on adherence to the 
policy in relation to the ongoing transformation of the Army to modular 
units. The FSC is one of these modular units. The RAND Corporation's 
National Defense Research Institute is assisting the Department in this 
examination. We anticipate that the final report, along with the 
Department's subsequent analysis, will be forwarded to Congress later 
this year. I expect that the concerns expressed by your questions and 
requests for specific data will be addressed in a more analytical and 
helpful manner through this formal report.

                                  <all>

</pre></body></html>
